ROOT CAUSES OF AMTRAK TRAIN DELAYS

       Federal Railroad Administration

        Report Number: CR-2008-076
       Date Issued: September 8, 2008
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Root Causes of Amtrak                                          Date:    September 8, 2008
           Train Delays
           Federal Railroad Administration
           Report Number CR-2008-076

  From:                                                                                      Reply to
           David Tornquist                                                                   Attn. of:   JA-50
           Assistant Inspector General
            for Rail and Maritime Program Audits and
            Economic Analysis

    To:    Federal Railroad Administrator

           This report presents the results of our audit of the root causes of delays for Amtrak
           trains operating outside of the Northeast Corridor (NEC). 1 We conducted this
           audit at the request of the Senate Appropriations Subcommittee on Transportation,
           Housing and Urban Development, and Related Agencies. Amtrak train delays
           reduce Amtrak’s ticket revenues and increase its costs, thereby increasing
           Amtrak’s reliance on Federal operating subsidies and reducing its viability as a
           transportation alternative. However, Amtrak and the freight railroads on whose
           tracks Amtrak operates disagree on the causes of these delays, making it difficult
           for them to reach consensus on how best to address them.

           Our audit objectives were to: (1) identify the root causes of delays for Amtrak
           trains operating outside the NEC, (2) assess whether Amtrak’s passenger trains
           have been granted preference over freight trains as prescribed by law, (3) identify
           practices in dispatching trains that influence delays, and (4) evaluate whether
           delays in maintaining track have impacted Amtrak train delays.

           We interviewed officials from Amtrak, the Association of American Railroads
           (AAR), four Class 1 freight railroads 2 and other stakeholder groups regarding
           1
               The NEC is the route connecting Boston, MA, and Washington, D.C., by way of New York, NY. Outside of the
               NEC, almost all Amtrak train miles occur on track owned and operated by freight railroads.
           2
               U.S. Class 1 freight railroads are defined as having operating revenue in excess of $346.8 million in 2006. Amtrak
               operates outside the NEC on track owned by six Class 1 host railroads: Burlington Northern Santa Fe Railway,
               Norfolk Southern Railway Company, CSX Transportation, Inc., Union Pacific Railroad Company, Canadian
               National Railway, and Canadian Pacific Railway (the last two are the smallest host railroads, which we did not visit).


                                                                        i
train dispatching practices, freight railroad capital investment and maintenance
activities, and railroad infrastructure capacity. We also analyzed Amtrak’s and
freight railroads’ on-time performance (OTP) 3 data for trains, reported causes of
delays, train scheduling, and the condition of track infrastructure. Exhibit A
further details our audit scope and methodology. Exhibit B lists the activities
visited or contacted.

BACKGROUND
In March of 2008, we reported that improving Amtrak’s OTP on routes outside the
NEC to 85 percent in fiscal year (FY) 2006 would have reduced Amtrak’s
operating loss (primarily by increasing ticket revenues and decreasing labor and
fuel costs) by $137 million. 4 This constituted more than 30 percent of Amtrak’s
$452 million FY 2006 cash loss.

Amtrak’s operating performance outside of the NEC is closely linked to the
performance of the six Class 1 freight railroads over whose tracks Amtrak
operates. These “host” railroads monitor and control the movements of all trains
operating over their tracks, which include not only Amtrak but also freight and
commuter trains. In addition, they impose slow orders for safety reasons and
undertake maintenance and capital improvement projects on their tracks, which
can directly affect operating speeds. 5

Amtrak has struggled in recent
                                         Table 1. Amtrak’s On-Time Performance
years to achieve overall OTP                           (FY 2005 - FY 2007)
levels higher than 70 percent on
                                     Service Type           FY 2005    FY 2006 FY 2007
routes outside the NEC. In
FY 2007, long distance trains’ All Amtrak Trains                70%      68%     69%
                                    NEC Acela                   75       85      88
OTP averaged 42 percent and         NEC                         78       80      80
corridor trains’ OTP (trains        Other Corridors             71       67      65
traveling less than 500 miles)      Long Distance               43       30      42
outside the NEC averaged           Source: OIG analysis of Amtrak data

65 percent. This compares to an OTP of 88 percent for the Acela and 80 percent
for NEC corridor trains, which are dispatched by Amtrak and operate on Amtrak-
owned track (see table 1).


3
    Throughout this report, unless otherwise specified, “OTP” measures endpoint performance (from the first station to
     the last station of the route).
4
     OIG Report Number CR-2008-047, “The Effects of Amtrak’s On-Time Performance,” March 28, 2008. OIG reports
     are available on our website: www.oig.dot.gov.
5
     The Federal Railroad Administration establishes a maximum speed for different classes of track based on the track
     characteristics and its condition. Train speeds are reduced for safety reasons through “slow orders” if the quality of a
     section of track is not sufficient to meet its maximum allowable speed for daily operations. In addition, slow orders
     can reduce the maximum allowable speed on segments involving or near maintenance areas or capital projects.


                                                              ii
Delays on Amtrak’s long distance trains off the NEC are widespread, and even the
best routes experience significant delays at some point. We found that only 4 of
13 long distance routes achieved an OTP of at least 60 percent for 4 or more years
during the FY 2001 to FY 2007 time period: the City of New Orleans, the
Crescent, the Empire Builder, and the Southwest Chief. Corridor trains generally
had better OTP from FY 2001 to FY 2007 but still showed a broad distribution of
delays among trains and variability by trains across years.

We also found that some host railroads consistently had fewer minutes of delay
per 10,000 Amtrak train miles than others between FY 2002 and June of FY 2008.
Specifically, Burlington Northern Santa Fe consistently had the fewest delay
minutes while Union Pacific consistently had the most (see figure 1).

                                                               Figure 1. Total Delays by Host Railroad
                                                                        (FY 2002 – June 2008)

                                            3,000
  Minutes of Delay Per 10,000 Train Miles




                                            2,500

                                            2,000

                                            1,500

                                            1,000

                                             500

                                               0
                                                    FY 2002   FY 2003     FY 2004          FY 2005   FY 2006    FY 2007   FY 2008
                                                                                                                          through
                                                                                                                            June
                                                                 Burlington Northern Santa Fe         CSX
                                                                 Union Pacific                        Norfolk Southern
                                                                 Canadian National                    Canadian Pacific

Source: OIG analysis of Amtrak data



RESULTS IN BRIEF
We found several root causes of Amtrak train delays that, if addressed, would
improve Amtrak’s OTP and financial viability. Amtrak trains are delayed by
(1) host railroad dispatching practices, some of which result in preference
violations; (2) track maintenance practices and the resulting speed restrictions;
(3) insufficient track capacity; and (4) external factors beyond the host railroads’
control. We did not allocate the causes of Amtrak train delays among these
categories because Amtrak and the host railroads disagree both on how to measure
delays and how to define Amtrak’s right to preference in the use of rail
infrastructure. Further, delay causes are often interrelated and cannot easily be
distinguished, and there are only limited data to assess delay causes. We found,


                                                                                     iii
however, that steps can be taken, both within current law and with statutory
changes, to reduce Amtrak train delays and improve its OTP.

Some host railroad dispatching practices violate Amtrak’s preference rights,
but disagreement over preference makes measuring violations difficult.
Congress granted Amtrak the right of preference in 1973, 6 and Amtrak believes
that the preference statute gives it the right to run trains unimpeded on host
railroads’ tracks. The host railroads acknowledge their obligation to grant
preference but do not agree that this means Amtrak trains should never encounter
delays due to interactions with other trains.

Further, the host railroads view it as their responsibility to keep all trains moving
as efficiently as possible through the rail network. In addition, AAR strongly
believes that adhering strictly to Amtrak’s definition of preference would quickly
shut down the rail network. Amtrak agrees that this could happen in some
circumstances but takes issue with how frequently these circumstances would
arise. Amtrak also argues that the host railroads do not have the right to
unilaterally decide when to deny an Amtrak train its dispatching preference in
order to maintain network fluidity. Since 1973, there has been no further
definition by Federal courts or other regulatory bodies.

In addition, the current mechanism for enforcing Amtrak’s preference rights is
ineffective because Amtrak has no right to either sue the host railroads in court or
appeal to the Secretary when it believes its preference is violated. While the
freight railroads can appeal to the Secretary for a waiver of their preference
obligations, they have no incentive to use it. They can simply choose to adjust
their dispatching practices if they determine that giving Amtrak trains preference
adversely affects their operations to an unacceptable degree. The host railroads
acknowledged that certain dispatching practices intentionally delay Amtrak trains,
and we believe these practices violate preference. These include delaying Amtrak
trains to maintain network fluidity; stopping freight trains on the mainline tracks to
change out crews; and, in some cases, allowing intermodal trains to proceed before
Amtrak trains.

Since preference remains undefined, other practices may also be determined to be
preference violations. Among these are other dispatching-related factors that can
unintentionally delay Amtrak trains, including inconsistent routing decisions and
handing-off processes between host railroads and the number of relatively
inexperienced dispatchers, all of which can lead to poor dispatching decisions. In
addition, priorities set by the host railroad’s senior management strongly influence
the way dispatchers handle Amtrak trains and the delays these trains experience.
We believe Amtrak’s OTP may be improved through better (1) enforcement of

6
    49 C.F.R. § 24308(c) (1973).


                                          iv
Amtrak’s preference rights (i.e., legislation), (2) oversight of individual
dispatching decisions, and (3) host management cooperation with Amtrak through
an expanded route action plan program. Increased cooperation would build on the
Secretary of Transportation’s April 2008 challenge to Amtrak and each host
railroad to devise and implement a route action plan for one route operated on that
host railroad’s tracks.

Track maintenance practices can delay Amtrak trains, at times unavoidably.
Host railroads have a contractual, not statutory, obligation to maintain their
infrastructure at levels that allow Amtrak to meet its schedules with a reasonable
degree of reliability. The condition of the infrastructure can result in speed
restrictions, or “slow orders,” that are imposed by the host railroads due to track
defects, routine maintenance, capital expansion projects, or inclement weather.
They can restrict travel speed to as low as 10 mph for Amtrak trains capable of 79
mph.

Amtrak argues that better routine maintenance practices by host railroads would
limit the occurrence of track defects and the associated slow orders. However,
host railroads claim that they are limited in the amount of capital they have
available to address these track maintenance issues. They therefore give priority
to fixing the mainline tracks that handle the majority of train traffic. Amtrak has
raised concerns that this practice negatively impacts the performance of Amtrak
routes operating over non-mainline tracks. The host railroads also state that many
of the major infrastructure improvement projects that currently delay Amtrak
trains will serve to increase Amtrak’s OTP in the future.

Amtrak and the host railroads also differ in their understanding of what effort the
host railroads are required to put forth to maintain the quality of track under their
contractual operating agreements. To address these issues, we are recommending
increased involvement from the Federal Railroad Administration (FRA), the
Secretary of Transportation, and state governments to help clarify the host
railroads’ responsibilities, provide additional capital for infrastructure
improvements, and develop route action plans that include agreements on host
railroad maintenance efforts.

Insufficient rail capacity contributes to delays. The host railroads argue that
Amtrak train delays are primarily caused by a rail network that currently has
insufficient capacity to handle the needs of intercity passenger, freight, and
commuter railroads. Amtrak concedes that capacity limitations contribute to
delays but does not agree that they are either the sole or primary reason for train
delays. Between 1980 and 2006, demand for freight rail transportation increased
substantially (by 92.8 percent, as measured by ton-miles) and is projected to
continue to do so in the future. At the same time, however, the host railroads have



                                         v
significantly reduced their physical track (by 42.4 percent) to reduce their
maintenance costs and remain competitive.

As rail traffic has increased, the rail network has become more congested and
average train speeds have slowed. From 2000 to 2007, railroad traffic density
(measured by revenue-ton miles per mile of railroad track) increased by
27 percent. The average speed of freight trains steadily declined from between
22 mph and 23 mph in the 1990s to between 19 mph and 21 mph from 2000 to
2004. Speed differentials between passenger and freight trains, rail bottlenecks,
increased intermodal traffic, and longer freight trains all further reduce rail
capacity. Additional capacity can be created by investing in better train control
and dispatching systems, additional mainline tracks, longer and more frequent
sidings, 7 crossings, signals, and bigger train yards. Therefore, to supplement the
host railroads’ own capacity-related investments, we are recommending that FRA
support additional investment to increase rail capacity through FRA’s Capital
Assistance to States – Intercity Passenger Rail Service Program to reduce delays to
Amtrak trains. We also recommend that FRA develop model contract terms to
assist states in maximizing the impact of their own capital investments.

Amtrak and the host railroads measure Amtrak train delays differently,
which hinders joint action to address root causes of delays and improve
Amtrak’s OTP. Amtrak measures its trains’ performance and delays according to
its published schedules and fairly stringent Interstate Commerce Commission
(ICC) delay tolerances. 8 The host railroads focus on contractual incentive
performance standards, which are less stringent than the published schedules. We
found that the schedule time, not the contractual incentive standards, is the better
metric by which to measure host railroad performance for two reasons: (1) it
reflects the expectation of Amtrak’s passengers and (2) the host railroads are
contractually obligated to make “every reasonable effort to meet the public
schedule time.”

Amtrak’s published schedules are agreed to by the host railroads as part of their
operating agreements; however, the host railroads have expressed concerns that
Amtrak’s schedules are unrealistic and outdated and do not reflect increased
freight traffic and congestion on the rail lines. The perceived lack of credibility in
the schedules can lessen the host railroads’ commitment to adhering to them.
Amtrak has noted that it will add time to its schedules in exchange for the host
railroads’ commitments to improve Amtrak trains’ OTP over their territory,
among other reasons (exhibit C summarizes schedule changes for selected Amtrak
routes). Therefore, we are recommending that FRA work with both the freight
7
    Sidings are short segments of secondary tracks used for passing trains that are on the mainline tracks.
8
    The Interstate Commerce Commission, which was abolished in 1996, briefly had oversight over Amtrak’s On-Time
    Performance until 1979. Amtrak still uses the same minutes of delay tolerances, though its OTP is not currently
    regulated by the ICC or its successor regulative body, the Surface Transportation Board (STB).


                                                        vi
railroads and Amtrak to resolve these disputes and establish common OTP and
delay standards to measure Amtrak’s performance.

SUMMARY OF RECOMMENDATIONS
We found that opportunities exist for Amtrak and the host railroads to cooperate in
reducing delays and improving the OTP of Amtrak trains. FRA can play a lead
role in facilitating this cooperation and, where needed, seek recommended
legislative changes. Our recommendations fall into the three following categories:

 • Dispatching and Preference: FRA should seek two legislative changes that
   would clarify Amtrak’s preference rights and enhance the enforceability of
   those rights.
 • Route Action Plans: FRA should institutionalize and expand the planning
   process initiated by the Secretary of Transportation in April 2008. This should
   include obtaining agreement between Amtrak and the freight railroads on how
   to measure and report delays.
 • Capacity: FRA should seek additional funding for its Capital Assistance to
   States – Intercity Passenger Rail Service Program and increase the
   consideration given to increasing OTP in selecting projects. FRA should also
   work with states that are making their own capital investments in freight
   railroads to improve the linkage between these investments and host railroad
   commitments to improve Amtrak train OTP. Our complete recommendations
   are listed on pages 24 and 25.




                                        vii
SUMMARY OF AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
We held an exit conference with FRA officials on June 18, 2008, to discuss our
findings and recommendations. We provided FRA with our formal draft report on
July 16. On July 30, we received FRA’s response, which is contained in its
entirety in the appendix to this report. FRA officials generally concurred with all
of our recommendations, but did not provide target dates for completing all of
them. FRA’s comments and our response are fully discussed on pages 26 and 27.

We appreciate the courtesies and cooperation of FRA, Amtrak, AAR, Burlington
Northern Santa Fe Railway, CSX Transportation, Inc., Union Pacific Railroad
Company, and Norfolk Southern Railway Company representatives during this
audit. If you have any questions concerning this report, please contact me at (202)
366-1981 or Mitchell Behm, Program Director, at (202) 366-1995.


                                        #

cc:   Martin Gertel, OST, M-1
      Audit Liaison, FRA, RAD-43
      Amtrak Liaison




                                       viii
                                   TABLE OF CONTENTS


FINDINGS ................................................................................................... 1
    Delays Are Widespread Across Amtrak Trains ...................................... 1
    Some Host Railroad Dispatching Practices Violate
    Amtrak’s Preference Rights, but Disagreement Over
    Preference Makes Measuring Violations Difficult................................... 3
    Track Maintenance Practices Can Delay Amtrak Trains, at
    Times Unavoidably................................................................................. 9
    Insufficient Rail Capacity Contributes to Delays .................................. 13
    Root Causes of Delays Are Difficult To Isolate and Quantify............... 19
    Amtrak and the Host Railroads Measure Amtrak Train
    Delays Differently, Which Hinders Joint Action To Improve
    Amtrak OTP.......................................................................................... 21

RECOMMENDATIONS............................................................................. 24

AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE............................................................................ 26

EXHIBIT A. SCOPE AND METHODOLOGY .......................................... 29

EXHIBIT B. ACTIVITIES VISITED OR CONTACTED............................. 31

EXHIBIT C. SELECTED AMTRAK SCHEDULE CHANGES,
1971-2007 ................................................................................................. 32

EXHIBIT D. AMTRAK OTP BY ROUTE AND HOST .............................. 34

EXHIBIT E. TRACK INFRASTRUCTURE
CHARACTERISTICS ................................................................................ 39

EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT.................... 41

APPENDIX. AGENCY COMMENTS........................................................ 42
                                                                                                                     1


FINDINGS
We found several root causes of Amtrak train delays that, if addressed, would
improve Amtrak’s OTP and financial viability. Amtrak trains are delayed by
(1) host railroad dispatching practices, some of which result in preference
violations; (2) track maintenance practices and the resulting speed restrictions;
(3) insufficient track capacity; and (4) external factors beyond the host railroads’
control. We did not allocate the cause of Amtrak train delays among these
categories because Amtrak and the host railroads disagree both on how to measure
delays and how to define Amtrak’s right to preference in the use of rail
infrastructure. Further, delay causes are often interrelated and cannot easily be
distinguished, and there are only limited data to assess delay causes. We found,
however, that steps can be taken, both within current law and with statutory
changes, to reduce Amtrak train delays and improve its OTP.

Delays Are Widespread Across Amtrak Trains
An examination of the performance of Amtrak long distance trains against their
public schedules shows that delays are widespread among routes, and even the
best routes experience significant delays at some point. For example, from
FY 2001 to FY 2007, only 4 of 13 long distance routes off the NEC consistently
had an OTP of at least 60 percent: 9 the City of New Orleans, which operates on
Canadian National Railway (CN) tracks; the Crescent, which operates on Norfolk
Southern Railway Company (NS) tracks; and the Empire Builder and the
Southwest Chief, both of which operate on Burlington Northern Santa Fe Railway
(BNSF) tracks. Even these strong-performing trains experienced significant
annual fluctuations in OTP. For example, the City of New Orleans route was the
best performing long distance train during this period; yet, it still reported an OTP
of 45.8 percent in 2003 and rebounded to over 83 percent between FY 2004 and
FY 2007 (see exhibit D for charts of OTP by Amtrak route and host railroad for
FY 2001 to FY 2007).

The poorest performing long distance trains 10 between FY 2001 and FY 2007
include the Sunset Limited, which operates on CSX Transportation (CSX), BNSF,
and Union Pacific Railroad Company (UP) tracks; the Coast Starlight, which
operates on BNSF and UP tracks; and the Lake Shore Limited, which operates on
NS tracks. Both the Sunset Limited and the Coast Starlight reached single-digit
OTP during this time period, at 4.3 percent in 2003 and 3.9 percent in FY 2006,
respectively. The Lake Shore Limited reached a low of 20 percent OTP in
FY 2005.

9
     We defined “consistently” as having at least 60 percent OTP for 4 or more years between FY 2001 to FY 2007.
10
     We defined the poorest performing trains as those most frequently having one of the three lowest annual OTP during
     this time period.


Findings
                                                                                                                                              2


Corridor trains generally had better OTP than long distance trains between
FY 2001 and FY 2007, but still showed a broad distribution of delays among
trains and variability by trains across years. The best performing corridor trains
include the Hiawatha, which runs on UP and CP tracks; the Capitols, which runs
on UP tracks; and the Pacific Surfliner, which primarily runs on BNSF tracks.
The worst performers include the Carolinian, which runs on both CSX and NS
tracks, and the Michigan line, which runs on NS and CN tracks. Both trains
showed an OTP that dropped from mid-50 percent in FY 2001 to 26 percent and
31 percent, respectively, in FY 2007. The Missouri service, which began in FY
2006, also had similarly poor OTP, at 33 percent in FY 2006 and 28 percent in FY
2007.

We analyzed Amtrak’s FY 2007 OTP data, and found that when Amtrak long
distance and corridor trains were late, they were late by substantial amounts of
time, even when including the ICC delay tolerance of up to 30 minutes. For
example, 75 percent of long distance trains arrived more than an hour late, and
25 percent arrived more than 3 hours late. Corridor routes, which have shorter trip
times, tended to be late by shorter amounts of time. For non-state supported
corridor routes, 75 percent of trains arrived 28 minutes or more late, and
25 percent arrived 1 hour and 15 minutes or more late. State-supported corridor
routes performed slightly better—75 percent of trains arrived 21 minutes or more
late and 25 percent arrived 53 minutes or more late (see figure 2).

                                       Figure 2. Percent of Trains Arriving Late (by Minutes of Delay)

                                   6

                                                                   5H 01M
                                   5
  Duration of Delays (Hrs./Min.)




                                   4
                                                          3H 13M
                                   3

                                                 1H 54M                                                                              1H 56M
                                   2
                                                                                                       1H 30M
                                                                                                                            1H 15M
                                        1H 06M
                                                                                                 53M                  45M
                                   1
                                                                                          32M                   28M
                                                                                  21M

                                   0
                                                   1
                                             Long Distance                                   2 Corridor
                                                                                  State Supported                 Non-State3Supported
                                                                                                                       Corridor
                                                               % of Trains Arriving These Minutes or More Late

                                                                            75%         50%     25%     10%

Source: OIG analysis of Amtrak data



Findings
                                                                                                                        3


We also found that minutes of delay per 10,000 train miles were widely distributed
among the host railroads (see figure 1, p. iii). However, some host railroads
consistently performed better than others from FY 2002 through June of FY 2008.
Specifically, Burlington Northern Santa Fe consistently had the fewest delay
minutes while Union Pacific consistently had the most. With the exception of
Canadian National, delay minutes per 10,000 train miles declined for all host
railroads between FY 2007 and the first three quarters of FY 2008.


Some Host Railroad Dispatching Practices Violate Amtrak’s
Preference Rights, but Disagreement Over Preference Makes
Measuring Violations Difficult
Host railroad dispatching practices can delay Amtrak trains and violate Amtrak’s
preference rights. However, the absence of agreement between Amtrak and the
host railroads on the meaning of preference makes it difficult to quantify the
dispatching-related delays caused by preference violations. The situation is
further complicated by the fact that preference has never been clearly defined by
Federal courts or other regulatory bodies.

Amtrak and the Host Railroads Disagree About How To Define Preference
Amtrak’s right to preference is contained in Section 24308(c) of Title 49 of the
United States Code, which requires that passenger trains receive “preference over
freight transportation in using a rail line, junction, or crossing.” There are two
exceptions: (1) in the event of an emergency 11 and (2) when a railroad applies for
and receives relief from the Secretary of Transportation. To win relief, the freight
railroad must prove that giving preference to passenger rail “materially lessens”
the quality of freight transportation provided to shippers. The Secretary would
then work out a cooperative agreement between the parties for that specific
exception. To date, there have been no cases of a railroad seeking an exception
from the Secretary.

Amtrak believes that, from a legal standpoint, its right to preference is absolute,
(i.e., it applies in every instance not specifically excluded by the statute) and that
the statute grants Amtrak the right to run trains unimpeded by other trains on host
railroads’ tracks. In this view, any instance in which an Amtrak train is held for or
slowed by following a freight or other train is a preference violation, regardless of
why it occurs. 12 Amtrak also argues that a position taken by the Department of
Justice during the only enforcement action ever brought against a host railroad
11
     Emergencies are defined in 49 C.F.R. § 220.13 (1973) as “derailments, collisions, storms, wash-outs, obstructions to
     tracks, and other hazardous conditions that could result in death or injury, damage to property, or serious disruption
     of railroad operations.”
12
     Instances in which an Amtrak train is held for or is slowed by following a freight train are commonly referred to as
     “Freight Train Interference” (FTI).


Findings
                                                                                                                      4


supports its definition of preference. 13 According to Amtrak, railroad dispatchers
have an obligation to plan for meets between Amtrak and other trains and to take
steps to allow Amtrak to proceed without delay. In addition, Amtrak believes that
certain host railroad practices, such as operating trains that are too long to fit on
existing sidings and parking trains on sidings, are preference violations. Both of
these practices limit the dispatcher’s ability to schedule meets that do not delay
Amtrak trains.

The host railroads acknowledge their statutory obligation to grant priority access
to Amtrak trains, under what they term to be an outmoded law. According to the
AAR, “[b]y law, Amtrak trains operating over freight lines must be given priority;
this means that when Amtrak trains meet or overtake freight trains, the freight
trains are shunted to sidings or parallel lines until the passenger train has passed.”
This does not mean that an Amtrak train will run unimpeded, but, for example,
that a freight train must get out of the way at the next available opportunity when
overtaken by a faster Amtrak train.

More importantly, the host railroads view it as their responsibility to maintain
fluidity in the railroad system. Amtrak trains are to be given priority, but the
larger goal is to ensure that all trains, (i.e., freight, Amtrak, and commuter) keep
moving as efficiently as possible. As stated by one host railroad, “the primary
function of the dispatcher is to maintain network fluidity to ensure the safe and
efficient operation of all trains.”

Unfortunately, the current mechanism for resolving disputes between Amtrak and
the host railroads regarding the definition of preference and what constitutes a
preference violation is ineffective. The freight railroads have no incentive to
exercise their right to appeal to the Secretary for relief from the preference
requirements. They can simply choose to adjust their dispatching practices if they
determine that granting Amtrak trains preference in certain circumstances
adversely affects their operations to an unacceptable degree. Amtrak, however,
has no right to appeal to the Secretary to enforce what it believes to be its right to
preference. While Amtrak itself cannot sue, the Department of Justice may sue
the host railroads on Amtrak’s behalf, but has only done so once in 35 years. As a
result, Amtrak does not have an effective means to obtain relief if it believes its
operations are being adversely affected by the host railroads not providing
preference.

Therefore, we are recommending that FRA seek legislative changes to provide
Amtrak with the same right as the host railroads to appeal to the Secretary on
13
     This case, the United States vs. Southern Pacific Transportation Company, was initiated in 1979 and settled before
     the court made a final judgment. Therefore, the court did not either endorse or reject the Department of Justice’s
     legal interpretation of the preference statute. A subsequent Administration may or may not interpret the preference
     statute in the same manner.


Findings
                                                                                                                       5


preference issues. In conjunction with our other recommendations, this would
place responsibility for the proposed activities to address Amtrak train delays
within the Department of Transportation. This proposal would not alter the
Department of Justice’s current authority to bring legal action to enforce the
preference law. 14

While Hosts Railroads Have No Clear Legal Basis for Making Network
Fluidity Paramount, In Some Instances, Amtrak’s Definition of Preference
Could Shut Down the Rail Network
There is no specific allowance in the preference statute giving host railroads the
option of deciding to deny an Amtrak train preference to maintain network
fluidity. AAR strongly believes, however, that adhering strictly to Amtrak’s
definition of preference would quickly shut down the rail network. Amtrak agreed
that, as a practical matter, such strict adherence could cause rail traffic in certain
areas of high traffic volume and chokepoints to shut down. According to Amtrak,
there will be certain circumstances in which the host railroads have no practical
alternative than to violate what Amtrak views as its right to preference. 15
However, Amtrak and the host railroads differ on how frequently these
circumstances would arise and who should decide—Amtrak or the host
railroads—when a particular Amtrak train should forego its right to preference to
maintain network fluidity. In our view, giving Amtrak the right to appeal to the
Secretary on preference issues would create a forum in which FRA could mediate
disputes over preference between Amtrak and the host railroads.

Some Host Railroad Dispatching Practices Delay Amtrak Trains
Each train dispatcher makes hundreds of decisions every day on how to handle the
flow of train traffic. These decisions can increase or reduce delays for Amtrak
trains and grant or deny Amtrak its preference rights. While dispatchers operate
within the policies set by their supervisors, they have significant autonomy in
making decisions because the situations impacting their decisions are constantly
changing.




14
     Section 209 of S. 294, the Passenger Rail improvement Act of 2007, would give the Surface Transportation Board
     (STB) the authority to investigate the poor OTP or delays on Amtrak trains, permit Amtrak freight railroads or states
     that support Amtrak service the right to petition the STB, and allow the STB to award damages for preference
     violations. S. 294 passed the Senate on October 30, 2007, but has not yet been enacted into law.
15
     Theoretically, the freight railroads could avoid a shutdown by seeking an exemption from their preference
     obligations, as permitted under the statute. As a practical matter, it is unclear how well this provision would work
     given the dynamic nature of the rail network, which requires frequent, real-time decisions to address unplanned
     events.


Findings
                                                                                         6


For example, dispatchers decide which trains may occupy main track lines or
sidings, whether unused freight equipment may be parked on sidings, and whether
a train may change its expired crew at a
point other than its normal location—all of Dispatching Decisions on the Silver
                                            Service Trains.   According to CSX,
which can directly impact Amtrak trains.
                                                dispatchers across 7 dispatching desks will
                                                make 255,500 dispatching decisions per
The host railroads we visited stated that, as   year to move the 4 Silver Service trains
a matter of company policy, Amtrak trains       between Miami and Washington, D.C.
are to be given dispatching priority.           Dispatchers will make 1,275 decisions on a
Nevertheless, some dispatching practices        single 24-hour Silver Service trip. Overall,
can delay Amtrak trains, although not           CSX dispatches 57 Amtrak trains per day.
purposefully. These dispatching practices
include the following:

 • Manual overrides by dispatchers to automated dispatching systems,
   necessitated by unplanned traffic disruptions: Host railroads often rely on
   automated dispatching systems to facilitate a dispatcher’s job and set these
   systems to automatically grant Amtrak first dispatching priority. These systems
   work well in granting Amtrak priority when the rail network is operating as
   scheduled and planned.          However, unplanned events—such as train
   derailments, unscheduled or late trains, or maintenance work—frequently
   require dispatchers to manually make last-minute traffic management
   decisions. The frequency of unplanned disruptions or “out of slot” trains in
   daily operations removes the certainty that Amtrak trains will be consistently
   granted first priority and increases the potential for dispatching errors.

 • Inconsistent methods for handing off trains between host railroads: Each
   host railroad dispatches only their territory. However, many Amtrak long
   distance trains traverse multiple host railroads’ territories, and are “handed off”
   from one host to another. This creates a fragmented system in which
   dispatchers working for different railroads cannot see trains traveling in
   another railroad’s territory. Dispatchers receiving trains from another territory
   have to estimate when a train will be entering their territory or try to obtain this
   information from a dispatcher working for the adjacent railroad. One senior
   railroad manager told us that “the level of coordination between different
   railroads and different territories varies; sometimes it’s good, sometimes not.”

 • Relative inexperience of dispatchers in recent years: Inexperienced
   dispatchers contribute to delays due to errors in traffic management or other
   decisions. The host railroads noted that over the past few years, the rail
   industry has lost a significant number of experienced dispatchers due to an
   aging and rapidly retiring workforce. New dispatchers are now hired with
   little to no railroad experience and limited familiarity with track territories, the


Findings
                                                                                                                      7


       railroad’s operating rules, and the industry’s culture. According to one host
       railroad, almost half of its dispatchers have no prior dispatching experience.

Dispatching Practices Can Deliberately Delay Amtrak Trains and Violate
Amtrak’s Right to Preference
The host railroads acknowledged that they have certain dispatching practices that
deliberately delay Amtrak trains. While other actions may also be violations, we
consider these intentional delays to be preference violations and found that they
are caused by several factors, such as those discussed below.

     • Maintaining “network fluidity:” The host railroads stated that dispatchers are
       instructed to hold Amtrak trains, if necessary, to minimize the overall system
       delays, or avoid longer delays to Amtrak trains later on.

     • Stopping freight trains on the mainline tracks to change crews that have
       reached or expired their hours of service: 16 We analyzed Amtrak’s Freight
       Train Interference (FTI) delay data for January 2006 through December 2007
       for six long distance Amtrak routes 17 and found some, although minimal,
       delays due to expired crews or freight crew changes. These delays amounted
       to 1.2 percent or less of the FTI delays experienced by these routes during that
       period.

     • Giving intermodal freight trains priority over an Amtrak train if the
       dispatcher believes that it will not cause the Amtrak train to be late:
       Intermodal freight transport is a growing area of business for freight railroads,
       and some host railroads expressed the sentiment that their intermodal
       operations are harmed by giving Amtrak trains first dispatching priority.
       However, only one host railroad stated that they had an explicit policy to grant
       intermodal trains priority over Amtrak trains.

Since decisions by individual dispatchers can delay Amtrak trains, we are
recommending that FRA seek a legislative change to expand the personal liability
dispatchers now have for violations of FRA safety rules to include personal
liability for violations of Amtrak’s preference rights. FRA should seek to
complement this increased liability with express authority for Amtrak to pay
incentives to individual host railroad dispatchers for meeting dispatching metrics
agreed upon by Amtrak and the individual host railroads. This change would
increase the attention given by the host railroad to dispatching Amtrak trains.
16
     The Hours of Service of Railroad Employees Law, 49 C.F.R. § 228. (First enacted in 1907, the Hours of Service Act
     was revised 1969 by Public Law 91–169.) This law applies to all railroads and sets the maximum hours that a
     railroad employee may work. It also requires a certain amount of time off before employees are legally allowed back
     on duty; otherwise, the railroad may incur civil penalties.
17
     These routes were the Capitol Limited, Cascades, Carolinian, Heartland Flyer, Kansas City-St. Louis, and Coast
     Starlight.


Findings
                                                                                                                  8


FRA should report to Congress regularly on which host railroads agreed to permit
these payments, what amounts were paid, and how these actions affected delays
and OTP.

Increased Focus From Host Railroads on Amtrak Train Dispatching Can
Significantly Decrease Amtrak’s Delays and Increase Its OTP
The host railroads exhibit varying levels of commitment to ensuring that Amtrak
trains are consistently dispatched to avoid delays, which results in fluctuating
Amtrak route performance. For example, one host railroad told us that improving
Amtrak’s OTP improves its own operations and helps to build a positive public
image in the states where it operates.

There are other host railroads, however, whose management priorities have
fostered a “corporate culture” against Amtrak. This is an expectation filtered
down from senior management to all railroad employees, including dispatchers,
that preference be given to freight operations, particularly intermodal trains, over
Amtrak trains. Some host railroads stated that Amtrak negatively impacts their
businesses by using capacity that could go to higher-paying customers.

We found, therefore, that increased
                                                          A Corporate Culture Unfavorable to Amtrak.
management attention from the host                        A 2006-2007 internal investigation at one host
railroads to how Amtrak trains are                        railroad found that the railroad’s corporate
dispatched can help to quickly                            culture led the dispatchers to intentionally delay
decrease Amtrak train delays and                          Amtrak in order to benefit their own intermodal
improve OTP. For example, both                            train business.
Amtrak and CSX refer to the Auto
                                                          For example, the investigation found the
Train 18 as a prime example of how                        railroad’s senior management gave explicit
improved cooperation and host                             instructions to one division’s managers that its
railroad management effort can                            dispatchers must prioritize intermodal trains
drastically improve an Amtrak                             over Amtrak, without regard to the resulting
train’s OTP.                                              delays to Amtrak trains.

The Auto Train had only 16.8 percent OTP in FY 2006, but this number rose to
62 percent in FY 2007 due to increased cooperation between CSX and Amtrak.
The senior management of CSX and Amtrak met in July 2006, and CSX agreed to
improve its management commitment to Amtrak OTP. In the months after this
meeting, Amtrak and CSX established an agreement to add time to the Auto
Train’s schedule in exchange for improved OTP. As a result, the Auto Train has
consistently shown better on-time performance. There have also been OTP
improvements on the Silver Star, the California Zephyr, the Crescent, Capitol


18
     The Auto Train transports passengers and vehicles between the Washington, D.C., area and Sanford, Florida.


Findings
                                                                                                                 9


Limited, and Lake Shore Limited trains. Amtrak attributes these to instances of
improved freight management cooperation with Amtrak through negotiated plans.

In April 2008, the Secretary of Transportation challenged Amtrak and each host
railroad to devise and implement a route action plan for one route operated on that
host railroad’s tracks. Through the route planning process, Amtrak and the host
railroads negotiate specific steps to improve OTP, including schedule changes,
capacity projects, slow order reductions, and equipment modifications.

We are recommending that FRA expand this route planning process to all long
distance and corridor trains with poor OTP. To incentivize the host railroads to
participate, FRA should consider expanding the selection criteria for its Capital
Assistance to States-Intercity Passenger Rail Service Program to include active
participation by the host railroad in a route management plan for the route on
which the grant monies would be spent. In addition, FRA should require Amtrak
to report regularly to FRA on the steps taken to implement these plans and publish
a “scorecard,” similar to what was developed for the I-95 Corridor Action Plan. 19
This process will keep the public informed on progress toward implementing the
plan.

Finally, FRA should encourage better internal reporting by the host railroads of
delays to Amtrak trains and increased focus by their top management of delays
and OTP. FRA should accomplish this by reporting to Congress how each host
railroad internally reports OTP and delay data, who receives the data, how
frequently the data are received, what the standard procedure is for reviewing and
acting on the data, and what results derive from these review procedures.

Track Maintenance Practices Can Delay Amtrak Trains, at Times
Unavoidably
Host railroads have a contractual, not statutory, obligation to maintain their
infrastructure at levels that allow Amtrak to meet its schedules. Infrastructure-
related speed restrictions, or “slow orders,” can result from track defects, planned
(routine) maintenance, capital expansion projects, or inclement weather. Host
railroads claim that they are limited in the amount of capital needed to address
track maintenance issues.

Host Railroads Have Contractual Obligations To Maintain Track Utility
Within Reasonable Levels
Amtrak’s contracts with BNSF, CSX, and NS require these host railroads to make
reasonable efforts to maintain a level of infrastructure quality that will allow

19
     The I-95 Corridor Action Plan is a plan developed by Amtrak and CSX to make dispatching and other improvements
     in exchange for adding time to Amtrak schedules for I-95 corridor train routes


Findings
                                                                                                                    10


Amtrak trains to meet their operating schedules with a reasonable degree of
reliability. By contrast, Amtrak’s contract with UP specifies by route the
maximum minutes of permitted slow order delays. Slow orders can impose speed
restrictions as low as 10 mph on Amtrak trains that are capable of reaching top
speeds of 79 mph. Excessive amounts of slow orders and the delays from running
at restricted speeds can drastically impede Amtrak’s ability to meet its public
schedules.

Slow order delays to Amtrak trains outside the NEC have decreased overall
between 2002 and June 2008 by 13.6 percent. These delays steadily declined
between 2002 and 2004, then increased by 25.9 percent to a peak in FY 2007, and
then declined in the first half of FY 2008. Despite the recent decrease, the current
amount of slow order delays remains above the FY 2005 level (see figure 3
below).
                                            Figure 3. Total Minutes of Slow Order Delays
                                                       (FY 2002-June FY 2008)

                                    2,750
                                                                                                2,621
     Minutes of Slow Order Delays




                                             2,482
                                    2,500
        (Per 10,000 train miles)




                                                                                       2,341
                                    2,250
                                                       2,269

                                                                                                           2,144
                                                                 2,082     2,089
                                    2,000




                                    1,750
                                            FY 2002   FY 2003   FY 2004   FY 2005   FY 2006    FY 2007   FY 2008
                                                                                                         (through
                                                                                                           June)



 Source: OIG analysis of Amtrak data

Between FY 2002 and June of FY 2008, the top three contributors to Amtrak’s
slow order related delays were UP (with 26.4 percent), CP (with 21.7 percent), and
CSX (with 20.6 percent) (see figure 4 on following page).




Findings
                                                                                                                       11


                                   Figure 4. Minutes of Slow Order Delays by Host Railroad
                                                   (FY 2002 – June FY 2008)
                                    900


                                    750
    Minutes of Slow Order Delays


                                    600
      (Per 10,000 train miles)



                                    450


                                    300


                                    150


                                      0
                                          FY 2002   FY 2003     FY 2004      FY 2005   FY 2006    FY 2007   FY 2008
                                                                                                            (through
                                                                                                              June)
                                                    Burlington Northern Santa Fe       CSX
                                                    Union Pacific                      Norfolk Southern
                                                    Canadian National                  Canadian Pacific

   Source: Amtrak
Slow Orders Arise From Several Circumstances, Including Track Defects,
Planned Maintenance, Capital Projects, or Inclement Weather
Slow orders result from circumstances both within and outside the host railroads’
control. For example, host railroads can control when planned maintenance or
capital projects occur but cannot plan for when track defects occur. Planned
maintenance and capital projects are major infrastructure improvement work
scheduled by the host railroads months or years in advance. Amtrak can plan for
these slow order restrictions.
Defective or poor quality track often requires the placement of a slow order to
ensure safe train operations. These track defects are caused by daily wear from
train operations, inclement weather, or an accident or unplanned disruption that
caused damage to the tracks. Track defects can occur at any time; therefore,
maintenance to fix track defects is unscheduled. Amtrak trains are typically
unaware of these track defects before encountering slow orders during a route.

Recent data provided by Amtrak for UP and CSX indicated that most slow orders
are caused by track defects, not planned maintenance or capital projects.
According to Amtrak, in November 2007, 97 percent of the slow orders on UP
routes used by Amtrak were due to track defects rather than major track
maintenance work projects. CSX also conducted an analysis, which showed that
70 percent of slow orders on their tracks within the I-95 corridor in calendar year




Findings
                                                                                                              12


2007 were caused by track defects while 30 percent were caused by planned
maintenance work. 20

Host Railroads Argue That Limits on Available Capital Restrict Their Ability
To Address Slow Orders
According to Amtrak, the fact that most slow orders arise from track defects
indicates that the host railroads are not maintaining their track sufficiently to avoid
unnecessarily delaying Amtrak trains. Also, Amtrak argues that some host
railroads take too long to address slow orders. In Amtrak’s view, the host
railroads need to improve their routine maintenance practices to limit the
occurrence of track defects.
Host railroads argue that slow orders adversely affect their own freight operations,
giving them no reason to leave a slow order in place longer than necessary. They
further state that their ability to fix track defects is constrained by:

     • an insufficient number of track maintenance workers, which prevents them
       from addressing the defects quickly.

     • increased network traffic and operations restrictions (i.e., a desire not to disrupt
       ongoing freight and passenger operations), which create scheduling
       restrictions.

     • seasonal constraints that delay completion of track work.

Finally, railroads are an extremely capital-intensive industry, and there is
insufficient capital available to address all track defects within a limited
timeframe. AAR stated that, as a result of this limitation on capital, the host
railroads’ priorities are to fix the mainline tracks, which handle the majority of
train traffic and provide the greatest return on investment from a network
standpoint. Therefore, the Amtrak routes that run along these mainlines benefit
from this investment. Amtrak has raised the concern that certain Amtrak routes
that do not operate over the freight railroads’ mainline tracks do not receive the
same level of investment and attention by the host railroads in removing slow
orders.

In addition, according to AAR, the host railroads are spending record amounts on
infrastructure improvement projects that may delay Amtrak trains now but will
serve to increase Amtrak’s OTP in the future. The host railroads work with
Amtrak to try to schedule major infrastructure projects in times of low traffic
months.

20
     It should be noted that planned maintenance work can be highly cyclical and may skew slow order delay data on
     individual routes as major work is undertaken, but then not repeated for several years.


Findings
                                                                                 13


The contrasting views of Amtrak and the host railroads on slow orders reflect the
absence of a clear definition of “with a reasonable degree of reliability” and a
difference in perspective on the degree to which the operating agreements are
binding in nature. Amtrak believes the contracts are binding, even if they lack
clear definitions. Some host railroads indicated that they view the contracts as
expressing goals they intend to meet but not binding near-term obligations; they
also stated they are making a reasonable effort to maintain track at a sufficient
level of utility. Therefore, we are recommending expanding the route action
planning process and increasing the visibility of the implementation of the
resulting plans, which would help Amtrak and the host railroads reach agreement
on specific steps to reduce slow orders and ensure these steps are implemented.

Insufficient Rail Capacity Contributes to Delays
The host railroads argue that Amtrak train delays are primarily caused by a rail
network that currently has insufficient capacity to handle the needs of intercity
passenger, freight, and commuter railroads. This situation will only worsen as
both freight and passenger rail traffic increase in the future. Amtrak concedes that
capacity limitations contributes to delays, but does not agree that it is either the
sole or primary reason for train delays.

Rail Congestion Is Rising Due to Rapidly Increased Rail Traffic and
Decreased Track Mileage
Demand for freight rail transportation has increased substantially since 1980 and is
projected to continue to do so in the future. At the same time, however, the host
railroads reduced their physical track to reduce their maintenance costs and remain
competitive within the railroad industry and across other modes of freight
transportation (trucks, airlines, ships). Between 1980 and 2006, Class 1 railroad
freight traffic increased by 92.8 percent (as measured by ton-miles), while the
Class 1 rail network decreased by 42.4 percent (as measured in miles of physical
track). (see figure 5 on the following page).




Findings
                                                                                                                                                                           14


                                                    Figure 5. Change in Freight Traffic and Track Mileage on Delays
                                                                              (1980-2006)

     Class I Freight Traffic Ton Miles (Billions)     2,000                                                                            180,000

                                                      1,800                                                                            160,000




                                                                                                                                                 Class I Track Mileage (Billions)
                                                      1,600
                                                                                                                                       140,000
                                                      1,400
                                                                                                                                       120,000
                                                      1,200
                                                                                                                                       100,000
                                                      1,000

                                                       800                                                                             80,000


                                                       600                                                                             60,000
                                                            80

                                                                   85

                                                                          90

                                                                                 95

                                                                                        00

                                                                                               01

                                                                                                      02

                                                                                                             03

                                                                                                                    04

                                                                                                                           05

                                                                                                                                  06
                                                          19

                                                                 19

                                                                        19

                                                                               19

                                                                                      20

                                                                                             20

                                                                                                    20

                                                                                                           20

                                                                                                                  20

                                                                                                                         20

                                                                                                                                20
                                                                        Class I Freight Traffic               Class I Track Mileage

Source: OIG analysis of data provided by AAR and Bureau of Transportation Statistics

As rail traffic has increased, the rail network has become more congested. From
2000 to 2007, railroad traffic density (measured by revenue-ton miles per mile of
railroad track) increased by 27 percent. Since 1990, rail traffic density has
increased by 118 percent. According to FRA, freight demand forecasts predict
increasingly constrained freight rail capacity. Overall demand 21 for freight
transportation is projected to grow 43 percent by the year 2020, while rail freight
traffic is expected to grow by 35 percent during this period. 22 Rail traffic growth
may substantially increase in the event that highway congestion or other public
policy issues drive freight business from the roads to rail.

According to the AAR, the freight railroads’ operations have been affected by this
increased congestion. As a result, the average speed of freight trains steadily
declined from between 22 mph and 23 mph in the 1990s to between 19 and
21 mph from 2000 to 2004. 23

The most recent comprehensive review we found of rail capacity and
infrastructure investment needs is the National Rail Infrastructure Capacity and
Investment Study, which was published by the AAR in 2007. 24 This report was

21
   This includes demand across all modes of transportation, including rail, trucks, airplanes, and ships.
22
   This estimate assumes that rail will maintain its current share of the freight market.
23
   Statement of Joseph H. Boardman, Federal Railroad Administrator, before the House Committee on Transportation
   and Infrastructure, Subcommittee on Railroads, April 26, 2006.
24
   National Rail Infrastructure Capacity and Investment Study, prepared for Association of American Railroads by
   Cambridge Systematics Inc., September 2007.


Findings
                                                                                                                    15


undertaken to forecast future freight rail capacity needs and the cost to meet those
needs. The study also provides a snapshot of congestion levels on the current
freight track network and states that 88 percent of the rail network is operating
below capacity.

Although the study’s calculations of network capacity included data on passenger
train traffic, the study’s definitions of capacity levels were specific to the freight
railroads’ operations. For example, routes characterized as operating below
capacity would be capable of returning to normal operating conditions within 24 to
48 hours after a disruption. This is a much longer time standard than what is
needed to run tightly scheduled Amtrak trains, which have a 30-minute or less on-
time tolerance. Furthermore, data on other factors affecting Amtrak’s ability to
meet a schedule, such as the amount of slow orders or location, length, and
frequency of track sidings, were not included in the study. Therefore, we
concluded that the study results cannot be used to accurately determine whether
the rail network has sufficient capacity to deliver Amtrak trains on schedule.

Most Amtrak Trains Operate on Single Tracks With Bi-Directional Traffic,
Which Can Increase Congestion and Reduce Available Capacity
Several structural factors constrain rail capacity, including the amount of single
track on which an Amtrak route operates; the number, length, and location of
sidings (passing track segments next to mainline tracks); and the type of train
control system. Host railroads indicate the current freight rail network is dealing
with a complicated, multi-directional flow of traffic. On many routes, Amtrak
trains travel against the flow of freight traffic. On stretches of single track, it
becomes harder to avoid congestion.

We found that most Amtrak routes off the NEC operate on single track, but with
the most efficient type of signaling system and frequent sidings. 25 We examined
the track and signaling infrastructure for Amtrak routes off the NEC. 26 We found
that about 70 percent of the track mileage for these routes is on single track. In
addition, 7 of 13 Amtrak’s long distance routes and 6 of its 12 corridor routes we
examined operate over routes that were at least 70 percent single track. We also
found that 75 percent of the track mileage for these routes is controlled by
centralized traffic control systems, instead of the less efficient automatic block
signaling systems or manual control. In addition, 60 percent of the route mileage
for these Amtrak routes had sidings every 10 miles or less (see table 2 and
exhibit E for more detailed findings).
25
     Frequent sidings on single track increase available capacity because they allow (1) a faster moving train to pass a
     slower freight train via the siding or (2) a slower moving train to pull into the siding to let the passenger train
     continue on the main track.
26
     This analysis relied on the database supporting the U.S. Department of Energy’s Transportation Routing Analysis
     Geographic Information System (TRAGIS) simulation model, which is maintained by the Oak Ridge National
     Laboratory.


Findings
                                                                                                                    16


                       Table 2. Track Characteristics of Amtrak Routes
          Structural Factor                                              Miles              Percentage
          Track:
             1 Track                                                     14,622                  70.6%
             2 Tracks                                                     5,853                  28.2%
             3-4 Tracks                                                     253                   1.2%
                                                                         20,728                 100.0%

          Signal:
             Centralized traffic control                                 15,596                  75.3%
             Automatic block signaling                                    3,221                  15.5%
             Manual                                                       1,911                   9.2%
                                                                         20,728                 100.0%

          Siding Frequency:
             Less than every 10 miles                                    12,511                  60.4%
             Every 10 and 20 miles                                        5,495                  26.5%
             Greater than every 20 miles                                  2,722                  13.1%
                                                                         20,728                 100.0%
         Note: Last major update completed in 2002
         Source: OIG analysis of Department of Energy data

Despite the difficulties in avoiding congestion and delays when operating over
single tracks, there are several Amtrak routes that have consistently strong OTP on
mostly single-tracked rails. 27     There are many other factors involved in
determining a route’s performance. Therefore, there is no direct correlation
between single- or double-tracked rails and good or bad on-time performance.

Passenger and Freight Train Speed Differences Consume Considerable
Track Capacity
Capacity is also constrained by the different business models under which Amtrak
and the freight railroads operate. This results in a mix of scheduled and un-
scheduled trains operating at different speeds on the same track. Amtrak seeks to
consistently and reliably transport passengers along established routes according
to public schedules and therefore operates shorter, lighter, and faster trains than
the majority of freight trains. 28 In contrast, the freight railroads operate their
trains in a largely unscheduled, less time-sensitive model and vary the type,
length, weight, and speed of their trains to meet customer needs. Because freight
railroads operate a mix of scheduled and unscheduled trains, the resulting mix of
freight traffic on the tracks varies daily. For example, a customer could request an

27
     The City of New Orleans and the Empire Builder are two examples of strong performing, single-tracked routes.
28
     The exception to this is intermodal freight trains, which can operate at speeds comparable to Amtrak trains.


Findings
                                                                                                                    17


additional shipment of a good with an expedited timeframe, which could be added
to the existing mix of freight trains.

The recent growth in freight traffic has increased the mix of passenger and freight
trains operating on Amtrak routes, reducing the effective capacity of the rail
network. Amtrak and freight intermodal trains have a maximum speed of 79 mph,
while most other freight trains have a top speed of 60 mph and generally travel
much slower. Trains of a single type can be operated at similar speeds and with
more uniform spacing between the trains because they have similar braking
capabilities.

In areas where there is mixed traffic, including different length, speed, and braking
conditions, dispatchers plan longer spacing between trains to ensure safe braking
conditions. Therefore, areas of track that handle a mix of train types cannot
handle as many trains per day and have less track capacity than track sections with
traffic of a single train type. Depending on the number of tracks and type of
dispatching control system 29 being used, moving from a single train type (e.g., all
intermodal trains) on a corridor to a mix of train types (e.g., merchandise,
intermodal, and passenger) can reduce track capacity by up to 38 percent 30 (see
table 3 below).

         Table 3. Impact of Multiple Train Types on Typical Rail Corridors

     Number of Tracks                         Type of Control a                     Decrease in Average
                                                                                     Capacity if Multiple
                                                                                    Train Types Are Used
                  1                                N/S or TWC                                     20%
                  1                                   ABS                                         28%
                  1                                CTC or TCS                                     38%
                  2                                N/S or TWC                                     20%
                  2                                   ABS                                         34%
                  2                                CTC or TCS                                     25%
                  3                                CTC or TCS                                     18%
Source: OIG analysis of Cambridge Systematics data
a
  Types of Controls: N/S-TWC – No Signal/Track Warrant Control; ABS – Automatic
  Block Signaling; CTC-TCS – Centralized Traffic Control/Traffic Control System




29
   The type of train control system impacts the spacing achievable between trains. Please see the AAR September 2007
   report, “National Rail Freight Infrastructure Capacity and Investment Study,” for further information on the different
   types of control systems.
30
   National Rail Infrastructure Capacity and Investment Study Table, prepared for Association of American Railroads
   by Cambridge Systematics Inc., September 2007.


Findings
                                                                                                             18


Several Bottlenecks on the Freight Rail Network Can Slow Traffic Flow
Bottlenecks on the existing rail network make it difficult to move traffic through
certain locations. 31 While we found no comprehensive list of bottlenecks, Amtrak
identified at least seven segments where existing track capacity cannot handle the
volume of traffic. These bottlenecks affect the following routes:

     • Texas Eagle                                           • Sunset Limited
     • Heartland Flyer                                       • Coast Starlight
     • Capitol Limited                                       • Kansas City Mule
     • Blue Water                                            • Anne Rutledge
     • Pere Marquette                                        • Segments of the Missouri service
     • Segments of the Michigan service                      • Empire Builder


Other areas identified as having bottleneck problems around large urban areas
include Chicago, Los Angeles, Long Beach, Kansas City, and between
Washington, D.C., and Richmond, Virginia, 32 along the I-95 corridor.

Recent Growth in Intermodal Traffic and Freight Train Length Reduce
Capacity
Rail network capacity has also been reduced by the growth in intermodal traffic
and train length. The growth of intermodal train traffic, according to the National
Industrial Transportation League, has had profound effects on the railroad system.
This traffic tends to be higher speed and higher priority compared to, for example,
unit train coal or merchandise traffic. It therefore takes up significant space on the
railroads’ network. A significant part of this traffic comes from the West Coast in
the form of containers imported from the Far East, a factor that has caused
congestion on certain lines. 33 U.S. rail intermodal traffic volume quadrupled
between 1980 and 2007, from 3 million trailers and containers to more than
12 million.

Additionally, freight railroads have increasingly relied on longer trains to meet
demand. For example, 1 railroad increased its average car length from 40- to
100-car trains and another has moved from 60-car trains to between 100- and 150-
car trains. Longer trains reduce effective capacity because fewer sidings and
31
     Felix Ammah-Tagoe, PhD, and Deborah Johnson MA, “Understanding Potential Freight Bottlenecks in the United
     States: A Look at the GeoFreight Visual Display Tool,” 7th MTS Research and Technology Coordination
     Conference, Washington, D.C., November, 2004.
32
     Cited in Ammah-Tagoe and Johnson study noted above and in the statement of Joseph H. Boardman, Federal
     Railroad Administrator, before the House Committee on Transportation and Infrastructure, Subcommittee on
     Railroads, April 26, 2006.
33
     Statement of Matthew K. Rose Chairman, President and CEO of Burlington Northern Santa Fe Corporation, before
     the House Transportation and Infrastructure Committee, April 26, 2006.


Findings
                                                                                   19


terminals can accommodate the trains, and this requires them to occupy the main
line track for a longer period of time.

Additional capacity will be needed as part of a comprehensive solution to
Amtrak’s delay problems. Capacity can be created by public or private investment
in better train control and dispatching systems, additional mainline tracks, longer
and more frequent sidings, crossings, signals, and bigger train yards. Therefore, in
addition to the host railroads’ own capacity-related investments, additional
investment to increase rail capacity through FRA’s Capital Assistance to States –
Intercity Passenger Rail Service Program will be needed to reduce delays to
Amtrak trains. In addition, many states invest considerable capital funds to
upgrade freight rail networks. We believe FRA can help states improve the
effectiveness of state capital investments by developing model contract terms that
states can use to link those investments to commitments from the freight railroads
to improve OTP.

Root Causes of Delays Are Difficult To Isolate and Quantify
Many Amtrak trains are delayed by a combination of factors that reflect the
interrelated nature of the rail network. Unraveling the root cause of delays in
these instances partly depends on the meaning of Amtrak’s preference rights and
the host railroads’ contractual obligations to maintain a level of utility on the rail
infrastructure.    In addition, Amtrak’s conductor delay data, the most
comprehensive data source on delay causes, provides only a limited perspective on
these root causes.

Most Amtrak Delays Have Multiple, Interrelated Causes
The rail network operates 24 hours a day, 7 days a week. Delays in one part of the
network can set off another type of delay later on in the network, which creates a
“ripple” effect. As delays accumulate, the likelihood of unplanned meets between
Amtrak trains and other trains increases; it then becomes difficult, or nearly
impossible, to identify the initial cause of the Amtrak train delay. It can take up to
5 days, and sometimes up to 1 month, to restore service to normal operations after
an unplanned disruption. Unlike the aviation system, which allows planes to be
repositioned overnight, there is no “down time” within which trains can be
repositioned.

From the host railroads’ perspective, the root cause of a delay should be attributed
back to the initial unplanned disruption. From Amtrak’s perspective, its
preference and contractual rights make the initial disruption from days earlier not
relevant. This is because within the context of the status of the rail network,
Amtrak’s view is that, at any given time, the host railroads are obligated to give
Amtrak priority and make a reasonable effort to deliver Amtrak trains on time.


Findings
                                                                                                                       20


We did not find a single, underlying root cause that consistently explained delays.
Some routes with high levels of slow order delays had poor OTP while others did
not. Similarly, some routes run primarily on single track had good OTP, while
others did not. Each route has its own combination of factors that cause delay and
each requires a plan to address those specific factors to effectively reduce delays
and improve OTP.

Amtrak Delay Data Primarily Reflect What the Conductor Observes
Amtrak’s conductor delay reports only record the observable cause of delay and
are therefore limited in quantifying the proportionate share of the root causes of
Amtrak train delays. Amtrak conductors record delay information in 47 categories
for each milepost of each route. The conductor’s observations, however, are not
necessarily based on root causes. This is because the conductor can only see for a
limited distance in front of the train and may not be aware of other disruptions
elsewhere on the track network that could be affecting the train. Amtrak
conductors recording the immediate reason of delay to a specific Amtrak train are
frequently unable to identify other causes elsewhere in the network that could be
contributing to the delay, unless specifically told by a train dispatcher.
Furthermore, capacity limitations are not included as a possible cause of delay
because Amtrak considers it the host railroads’ obligation to deliver Amtrak trains
according to schedule despite congestion or other infrastructure-related issues.

Despite these limitations, the conductor delay data can contribute to the
understanding of the relative proportion of what is directly delaying Amtrak trains,
even if they do not necessarily reflect the underlying root causes. In FY 2007,
according to Amtrak’s data, 34 24.9 percent of delay minutes were due to freight
train interference, 21.1 percent for slow order delays, 10.9 percent for interference
delays with other passenger trains (other Amtrak trains), and 9.7 percent for signal
failure delays.

Amtrak-caused delays included 3.6 percent for any passenger-related delays,
2.5 percent for delays caused by Amtrak’s crews, 1.9 percent for locomotive
failures, and 7.2 percent for other causes, which include other mechanical delays.
External source related causes of delay include 1.4 percent for weather,
2.0 percent for unused recovery time, 35 and 1.0 percent due to trespasser delays
(see figure 6 on the following page).




34
     These causes-of-delay data are for all routes of long distance and corridor trains off the NEC.
35
     Unused recovery time is when Amtrak trains may be ahead of or on schedule for a segment of the route, where they
     cannot use recovery time to make up delays. For example, if a train arrives at a station early, it cannot use the extra
     time because it has a scheduled departure time.


Findings
                                                                                                                      21


           Figure 6. Amtrak Conductor Reported Causes of Delays, FY 2007


                                                                                         Passenger    3.6%
                                                                                         Crew         2.5%
                                                                                         Locomotive   1.9%
                                                                                         Other        7.2%
          FTI         24.9%                                               15%
          Slow Orders 21.1%
          PTI         10.9%
          Signals      9.7%                         79%
                                                                             6%
          Other       12.5%
                                                                                            Weather        1.4%
                                                                                            Unused Recovery
                                                                                             Time          2.0%
                                                                                            Trespassers     1.0%
                                                                                            Customs         0.5%
                                                                                            Other           0.9%

                                        Host Railroad        Amtrak       External Factors

 Source: OIG analysis of Amtrak data


Amtrak and the Host Railroads Measure Amtrak Train Delays
Differently, Which Hinders Joint Action To Improve Amtrak OTP
Amtrak measures its trains’ performance and delays according to its published
schedules and fairly stringent ICC delay tolerances. In discussing Amtrak’s
delays, the host railroads tend to focus on contractual incentive performance
standards, which are less stringent than the published schedules. 36 In addition,
while Amtrak’s on-time performance statistics focus on overall route performance,
each host railroad is concerned only with the segments of Amtrak routes that
operate over their own territory. This difference in focus makes agreement on the
magnitude of the delay problem difficult, let alone agreement on how to solve it.
We determined that the schedule time, not the contractual incentive standards, is
the better metric by which to measure host railroad performance.

Amtrak Focuses on Public Schedules While Host Railroads Focus on
Incentive Standards
Amtrak schedules reflect three components: (1) pure run-time, that is, the time it
would take an Amtrak train to traverse a route unimpeded with no speed
restrictions lowering speeds below the track’s rated speed; (2) station dwell time,
that is, the scheduled time the train waits in a station for passengers to depart and
board; and (3) recovery time, that is, an amount of time negotiated with the host
railroads to account for unplanned disruptions, (e.g., weather) and expected delays
resulting from shared usage of track. Amtrak does not plan for delays due to host


36
     Contractual incentive standards specify the conditions host railroads must meet in terms of delivering trains on time
     to earn incentive payments from Amtrak.


Findings
                                                                                                                   22


railroad operations in its schedules besides those included in the recovery time. 37
As shown in table 4 below, the window within which an Amtrak train is
considered to be on time depends on the route’s distance.

           Table 4. Comparison of On-Time Tolerances Across Amtrak and
                                   Freight Rail

             Amtrak On-Time
           (with ICC tolerance)                        Freight               Freight
         Route Length      On-Time                   Intermodal            Intermodal          Freight Train
           (miles)        Tolerance                  (standard)            (premium)              (other)
            51-250          10 min
             251-350                15 min                                                     Unscheduled
                                                    Scheduled             Scheduled
             351-450                20 min                                                     within 24- to
                                                   within 8- to12-       within 4- to 8-
                                                                                                 48- hour
             451-550                25 min         hour window           hour window
                                                                                                 window
          550 or more               30 min
      Source: OIG analysis of AAR and Amtrak data

It is important to note that high-value, premium, intermodal freight trains, which
travel at speeds comparable to Amtrak trains, operate on a significantly longer
window of delay tolerance, between 4 to 8 hours compared to up to 30 minutes for
Amtrak. This highlights one of the significant differences between Amtrak’s
highly scheduled business model and the freight’s more loosely scheduled model.
The fact that many freight trains are not scheduled at all also contributes to the
constantly changing circumstances the host railroads must accommodate to move
both passenger and freight trains on the same tracks.

Each host railroad has an operating contract with Amtrak that specifies certain
standards by which the host railroad can earn incentive payments for delivering
Amtrak trains across their tracks on time. In general, these standards require host
railroads to deliver 80 percent of the Amtrak trains on time to specific
checkpoints, with allowances given for certain types of delays or events.
According to Amtrak, these allowances add 10 to 20 percentage points to the
train’s OTP as measured by schedule.




37
     Amtrak negotiates separate agreements for specific routes with the host railroads, in which Amtrak often agrees to
     add time to its public schedules in exchange for improvements in a certain Amtrak route’s OTP. In those cases,
     Amtrak does add time to its schedule to account for delays due to host operations.


Findings
                                                                                                                 23


For example, during April                     Figure 7. OTP by Schedule vs. Incentive Standards for
2008,      the     Amtrak                                 Amtrak Cascades (April 2008)
Cascades trains, operating                        100%

over BNSF’s tracks, had
                                                  80%
63 percent OTP (within
the scheduled time plus an                        60%
on-time tolerance of 10




                                            OTP
minutes). However, when                           40%
considering             the
                                                                  63%                          92%
contractually      allotted                       20%

tolerances used to measure
                                                   0%
performance for incentive                                       Schedule                      Incentive
                                                                                              Standards
payments, the same trains
had 92 percent OTP (see                     Source: OIG Analysis of Washington DOT data

figure 7).

We determined that the schedule time, not the contractual incentive standards, is
the better metric by which to measure host railroad performance for the following
two reasons. 38

     • First, it reflects the expectation of                     Incentive Payments Are Insufficient To
       Amtrak’s passengers. As we reported                       Motivate Better Handling of Amtrak
       in March 2008, potential passengers’                      Trains. As of January 2008, only BNSF,
       lack of confidence in Amtrak’s OTP                        CP, and CN were earning incentive
       will cause them to choose not to ride                     payments from Amtrak. Three of the four
       the train, which reduces Amtrak’s                         Class 1 railroads we visited stated that they
                                                                 tended to view the incentive payments as
       ridership and revenues.                                   insufficient to influence the way they
                                                                 dispatch Amtrak trains. The contracts’
     • Second, despite focusing on incentive                     penalty provisions are also ineffective
       payment standards when discussing                         since host railroads are penalized only if
       their performance in delivering                           they have received incentive payments in
       Amtrak trains, the host railroads are                     the past 12 months, which most railroads
                                                                 do not receive.
       contractually obligated to make
       “every reasonable effort to meet the public schedule time.” This includes
       making a reasonable effort to (1) deliver Amtrak trains to all scheduled
       passenger stops by the scheduled time; (2) avoid excessive delays to trains; and
       (3) consistent with safety, make up delays, even those that occurred on other
       host railroads.


38
     There are many other ways to measure on-time performance, and each has its own strengths and weaknesses and
     serves different purposes. FRA summarized these issues regarding a wide range of alternate on-time performance
     indicators in its May 2008 quarterly report to Congress on improving the on-time performance of Amtrak intercity
     rail service—letter from Federal Railroad Administrator Joseph Boardman to the House and Senate Committees on
     Appropriations Chairman Senator Robert Byrd, May 2008.


Findings
                                                                                   24


Finally, while all four host railroads we met with expressed concern that Amtrak’s
schedules were inflexible and unchanging, we found that Amtrak has added time
to some routes. Exhibit C summarizes schedule changes for selected Amtrak
routes and provides the general reasons why Amtrak added or removed time for
these selected routes.

Given the differing viewpoints on how to properly measure OTP and delays, we
are recommending that FRA use its quarterly OTP reporting requirement to obtain
agreement between Amtrak and the host railroads on a proper performance
measure. FRA should then publicly report OTP and delay data by host and route
on a regular basis.

RECOMMENDATIONS
There are several root causes of Amtrak train delays that, if addressed, would
improve Amtrak’s OTP and financial viability. Amtrak has options available to
address some of these root causes, which it has yet to fully exercise. If Amtrak
believes it has compelling evidence of preference violations, Amtrak could
petition the Department of Justice to initiate a legal case against the host railroads
to enforce its preference rights and thereby affect host railroad dispatching
practices. Amtrak could also pursue arbitration or other legal action to enforce the
terms of its operating agreements with the host railroads. Both these avenues,
however, are either ineffective or potentially cumbersome.

We believe that FRA can play a lead role in facilitating cooperation between
Amtrak and the host railroads to reduce delays and, where needed, can seek
recommended legislative changes.

We recommend that the FRA Administrator:

1. Seek a legislative change that would provide Amtrak with the same right to
   appeal to the Secretary of Transportation to enforce its preference rights as the
   host railroads now have to appeal to the Secretary to obtain relief from their
   preference obligations.

2. Seek a legislative change to expand the personal liability dispatchers now have
   for violations of FRA safety rules to include personal violations of Amtrak’s
   preference rights.

       a. FRA should seek to complement this increased liability with express
          authority for Amtrak to pay incentives to individual host railroad
          dispatchers for meeting dispatching metrics agreed upon by Amtrak and
          the individual host railroads.



Recommendations
                                                                                25


      b. FRA should report to Congress regularly on which host railroads agreed
         to permit these payments, what amounts were paid, and how these
         actions affected delays and OTP.

3. Expand the route action plan process to include all Amtrak long distance and
   corridor routes with poor OTP and increase the visibility of the implementation
   of the resulting plans.

4. Use its quarterly OTP reporting requirement to obtain agreement between
   Amtrak and the host railroads regarding how to measure OTP and delays and
   then publicly report OTP and delay data by host and route on a regular basis.

5. Encourage better internal reporting by the host railroads and increased focus by
   their top management of delays and OTP.

6. Support the permanent authorization of, and increased funding for, the Capital
   Assistance to States-Intercity Passenger Rail Service Program through the
   upcoming surface transportation reauthorization and give increased
   consideration to projects that result in a binding commitment by the involved
   host railroad to improve OTP on that route.

7. Develop model contract terms that can be used by the states that are investing
   their own funds into freight railroad capital projects to link those investments
   to commitments to improve OTP.




Recommendations
                                                                                  26



AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We held an exit conference with FRA officials on June 18, 2008, to discuss our
findings and recommendations. We provided FRA with our formal draft report on
July 16. On July 30, we received FRA’s response, which is contained in its
entirety in the appendix to this report. FRA officials generally concurred with all
of our recommendations and provided appropriate planned actions. However,
FRA did not provide target dates for completing all proposed actions. With this in
mind, we respectfully request that FRA provide specific target dates to our office
within 30 days of the issuance of this report for each action required to address our
recommendations.

In its response to our report, FRA also noted that the most likely vehicle for it to
address recommendations 1 and 2 is the upcoming Amtrak reauthorization bill.
According to FRA, Congress is close to reaching an agreement on this bill. We
recognize that FRA’s ability to address and act upon recommendations 1 and 2
depends on whether Congress passes this legislation. Therefore, should Congress
enact an Amtrak reauthorization this session, we request that FRA provide us,
within 30 days of such enactment, an assessment of whether that legislation is
sufficient to address our recommendations or if further actions are needed. Should
the Amtrak reauthorization not be enacted this session, we request that FRA
provide us with a plan of action to implement our recommendations within 30
days of the end of the Congressional session.

 • Recommendation 1: FRA stated that it would consider the issue of preference
   legislation further and engage appropriate representatives within the
   Department to explore how such an approach could be structured and the
   appropriate legislative vehicle for possible consideration by Congress.

 • Recommendation 2: FRA stated that it opposes the use of the rail safety
   statutes for non-safety purposes. Instead, FRA proposed to achieve the same
   end by enacting an entirely separate civil penalty provision that has no relation
   to the rail safety statutes beyond using them as a model.

     - Recommendation 2a.: FRA agreed to consider the issue of complementing
       this increased liability with express authority for Amtrak to pay incentives
       to individual host railroad dispatchers further and engage appropriate
       representatives within the Department to explore how such an approach
       could be structured and the appropriate legislative vehicle for possible
       consideration by Congress.




Agency Comments and Office of Inspector General Response
                                                                                27


    - Recommendation 2b.: FRA stated that it already reports to Congress
      quarterly on its actions to improve on-time performance and if an incentive
      program was established, the issues and results associated with that
      program would be included in these reports.

 • Recommendation 3: FRA stated that it will actively monitor the progress of
   the route action plan and evaluate those aspects that work and those that can be
   improved. FRA will also work with Amtrak and the host railroads to expand
   successful efforts as both parties become comfortable with the process.

 • Recommendation 4: FRA stated that it will engage Amtrak and the host
   railroads in discussions designed to reach a consensus on appropriate OTP
   metrics. In the interim, FRA will present OTP status based upon multiple
   metrics.

 • Recommendation 5: FRA stated that it will continue to work with Amtrak
   and the host railroads to develop consensus metrics and improved reporting of
   these metrics. We consider this recommendation closed.

 • Recommendation 6: FRA stated the Administration first proposed such
   legislation in 2003 and continues to support permanent authorization. The
   proposed legislation would provide the Secretary with sufficient discretion in
   awarding grants that are contingent upon a binding commitment from the host
   railroad to OTP improvements. We consider this recommendation closed.

 • Recommendation 7: FRA stated that it believes such standard contract terms
   could be a good starting point for negotiations between states and host
   railroads. FRA expects to learn much from the FY 2008 and FY 2009 start-up
   of the capital grants to states for intercity passenger rail program that could
   form the basis for developing such model contract terms.


ACTIONS REQUIRED
FRA’s response and planned actions address the intent of recommendations 5 and
6 and we consider these recommendations closed. While we believe FRA’s
proposed actions also meet the intent of the remaining recommendations, we
cannot consider them resolved without target dates for FRA’s planned actions. In
accordance with Department of Transportation Order 8000.1C, we request that
FRA provide target dates for its planned actions for all other recommendations
within 30 days of the issuance of this report.




Agency Comments and Office of Inspector General Response
                                                                                28


We appreciate the courtesies and cooperation of FRA representatives during this
audit. If you have any questions concerning this report, please contact me at (202)
366-1981 or Mitchell Behm, Program Director, at (202) 366-1995.




Agency Comments and Office of Inspector General Response
                                                                                29




EXHIBIT A. SCOPE AND METHODOLOGY
Scope
The Senate Appropriations Subcommittee on Transportation, Housing, and Urban
Development, and Related Agencies requested that our office (1) identify the root
causes of Amtrak delays for Amtrak trains operating 0outside of the Northeast
Corridor, (2) assess if host freight railroads grant Amtrak trains preference over
freight trains as prescribed by law, (3) identify dispatching practices that impact
delays, and (4) evaluate whether delays in maintaining track have impacted
Amtrak’s train delays.

The legal opinions and data used in this report were obtained from Amtrak, the
host freight railroads, the Federal Railroad Administration (FRA), and the
Association of American Railroads (AAR). The data were used to perform the
analyses detailed below. During the audit, we met with senior operations
managers of four Class 1 freight railroads that dispatch Amtrak trains and
observed their dispatching center operations. These railroads were Burlington
Northern Santa Fe Railway (BNSF), Norfolk Southern Railway Company (NS),
CSX Transportation, Inc. (CSX), and Union Pacific Railroad Company (UP).

We conducted this performance audit from June 1, 2007, to June 30, 2008, in
accordance with Generally Accepted Government Auditing Standards prescribed
by the Comptroller General of the United States. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence that provides
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and
conclusion based on our audit objectives. There has been no prior audit coverage
in this area by the Department of Transportation’s Office of Inspector General.

Methodology
To identify root causes of delays, we collected and analyzed Amtrak’s data on
performance relative to schedule; OTP data, skeleton schedules, from which
public schedules are developed; U.S. Department of Energy data on track
characteristics; and contractual agreements with BNSF, NS, CSX, and UP. We
also collected and analyzed Amtrak’s minutes of delay data captured through
conductor delay reports. Amtrak’s minutes of delay data cover freight-caused
delays, such as freight and other train interference; slow orders; maintenance of
way; Amtrak-caused delays, such as equipment and passenger-related delays; and
delays caused by weather and third parties. We found that Amtrak’s minutes of
delay data often reflected secondary causes. Root causes were often represented
in multiple categories. Discussions with Amtrak operations staff and freight


Exhibit A. Scope and Methodology
                                                                                 30


railroads operations staff provided a clearer description of the underlying and
often immeasurable causes of delay.

To assess whether Amtrak’s statutory right of preference is granted to its trains,
we reviewed the statute (49 U.S.C. § 24308 [1973]); the legal opinion provided to
Amtrak from its outside counsel, Wilmer Cutler Pickering Hare and Dorr, LLP;
and the “Response to Memorandum of Southern Pacific in Opposition to Motion
for Preliminary Injunction” in the 1981 legal proceedings United States v.
Southern Pacific Transportation Company. In addition, we met with Amtrak’s
legal staff and outside legal counsel, the host railroads, FRA, and AAR to
understand the various interpretations of the preference legislation. We also met
with the Office of Inspector General and Department of Transportation Offices of
General Counsel to obtain their legal opinions on the meaning of preference.

To identify dispatching practices that impact delays, we met with representatives
of the major freight railroads dispatch operations at BNSF, CSX, NS, and UP;
observed their dispatch operations; and reviewed the host railroads’ written
dispatching and operations policies and procedures. We also reviewed an FRA
study, “Understanding How Train Dispatchers Manage and Control Trains” that
provided detail descriptions of how experienced railroad dispatchers manage and
schedule trains in today’s environment. We also met with key stakeholders,
including the FRA and AAR. Where relevant, we analyzed Amtrak’s minutes of
delay and OTP data to validate findings from our interviews with the host
railroads and Amtrak concerning host dispatching policies and practices.

To evaluate whether delays in maintaining track have impacted Amtrak’s train
delays, we analyzed Amtrak’s minutes of delays from slow orders between
FY 2001 and the third quarter of FY 2008 and obtained slow order data from UP
and CSX. We interviewed the host railroads, Amtrak, AAR, FRA, and other
stakeholders to understand the railroad industry’s capital and infrastructure
investment planning process, the role that slow orders play in overall train
operations, and its impact on Amtrak’s on-time performance. Amtrak’s operating
contracts with each of the host railroads provided the terms under which the host
railroads are obligated to maintain their tracks related to Amtrak’s schedule
reliability.

We sought, but were unable to obtain, detailed data regarding the location, cause,
and duration of slow orders on freight railroad tracks, as well as detailed data on
existing rail capacity and traffic by route. Much of this information is considered
proprietary by the freight railroads. We continue to seek this additional data, and,
if it becomes available, plan to conduct econometric analyses to try to determine
the relative contribution of different root causes, i.e., capacity or dispatching
practices, to Amtrak train delays.


Exhibit A. Scope and Methodology
                                                             31




EXHIBIT B. ACTIVITIES VISITED OR CONTACTED


  Amtrak, Washington, D.C.

  Association of American Railroads, Washington, D.C.

  Burlington Northern Santa Fe Railway, Fort Worth, TX

  Cambridge Systematics, Inc., Washington, D.C.

  CSX Transportation, Inc., Jacksonville, FL

  Department of Transportation, Office of General Counsel,
  Washington, D.C.

  Federal Railroad Administration, Washington, D.C.

  Norfolk Southern Railway Company, Atlanta, GA

  Union Pacific Railroad Company, Omaha, NE




Exhibit B. Activities Visited or Contacted
                                                                  32


EXHIBIT C. SELECTED AMTRAK SCHEDULE CHANGES, 1971-
2007
Train                                Schedule Change 1971-2007
California Zephyr
Train 5                              Added 8 hours, 30 minutes
Train 6                              Added 6 hours, 15 minutes
Capitol Limited
Train 29                             Removed 1 hour, 40 minutes
Train 30                             Removed 1 hour, 10 minutes
Cardinal
Train 50                             Added 45 minutes
Train 51                             Added 2 hours, 5 minutes
Carolinian:
Train 79                             Removed 12 minutes
Train 80                             Removed 12 minutes
City of New Orleans
Train 58                             Added 2 hours, 15 minutes
Train 59                             Added 2 hours, 33 minutes
Coast Starlight
Train 11                             Added 4 hours
Train 14                             Added 3 hours, 10 minutes
Crescent
Train 19                             Added 3 minutes
Train 20                             Added 1 hour, 45 minutes
Empire Builder
Train 7                              Removed 15 minutes
Train 8                              Removed 59 minutes
Lake Shore Limited
Train 48                             Added 2 hours, 10 minutes
Train 49                             Added 30 minutes
Silver Meteor
Train 97                             Added 3 minutes
Train 98                             Added 8 minutes
Silver Star
Train 81                             Added 1 hour, 39 minutes
Train 82                             Added 1 hour, 18 minutes
Southwest Chief
Train 3                              Added 2 hours, 35 minutes
Train 4                              Added 3 hours, 21 minutes
Sunset Limited
Train 1                              Added 3 hours
Train 2                              Added 3 hours, 20 minutes
Texas Eagle
Train 21                             Added 3 hours, 35 minutes
Train 22                             Added 2 hours, 25 minutes
Source: Amtrak



Exhibit C. Selected Amtrak Schedule Changes, 1971-2007
                                                                              33


Though there may be other route-specific reasons for changing certain schedules
that are not included here, Amtrak changed some of its schedules because of:

 • Changes to route, which include adding or changing station stops.

 • Attempts to work with host railroads to improve OTP and/or reduce minutes of
   delay on certain routes.

 • Added time to several routes. (Amtrak did this in 2001 because of its mail and
   express service; when the mail and express service was discontinued in 2007,
   not all of this extra time was removed from the schedules.)

 • Downgrading of track speeds by host railroads.




Exhibit C. Selected Amtrak Schedule Changes, 1971-2007
                                                                                                                                            34


                                                                                                                39
EXHIBIT D. AMTRAK OTP BY ROUTE AND HOST

                                             CSX Long Distance OTP
      70.0%



      60.0%



      50.0%



      40.0%



      30.0%



      20.0%



      10.0%



       0.0%
                 FY 2001          FY 2002         FY 2003             FY 2004              FY 2005             FY 2006            FY 2007

                       Cardinal     Lake Shore Limited       Silver Service        Auto Train      Sunset Limited        Capitol Limited

Note: Cardinal service is shared with CN, NS, and UP; but CSX is the primary host for this route. Lakeshore
Limited service is shared with NS; Silver service is shared with NS; but the majority of the route is on CSX.
Sunset Limited service, shared with UP and BNSF, was discontinued on the CSX portion of the line after
Hurricane Katrina (2005). Capitol Limited service is shared with NS.


                                             NS Long Distance OTP
        80.0%



        70.0%



        60.0%



        50.0%



        40.0%



        30.0%



        20.0%



        10.0%



         0.0%
                   FY 2001         FY 2002         FY 2003             FY 2004             FY 2005            FY 2006          FY 2007

                                                 Lake Shore Limited           Crescent      Capitol Limited

Note: Lake Shore Limited and Capitol Limited services are shared with CSX.


39
     For all charts in Exhibit D, the source is OIG analysis of Amtrak data.

Exhibit D. Amtrak OTP by Route and Host
                                                                                                                             35



                                         UP Long Distance OTP
  70.0%



  60.0%



  50.0%



  40.0%



  30.0%



  20.0%



  10.0%



   0.0%
            FY 2001           FY 2002           FY 2003        FY 2004          FY 2005           FY 2006          FY 2007

                                  Texas Eagle      Sunset Limited     California Zephyr     Coast Starlight

Note: Texas Eagle service is shared with BNSF and CN, but the majority of the route is on UP. Sunset
Limited service is shared with BNSF and CSX (through 2005), but the majority of the route is on UP.
California Zephyr and Coast Starlight services are shared with BNSF. The majority of the Coast Starlight
service’s route is on UP.

                                        BNSF Long Distance OTP
  90.0%


  80.0%


  70.0%


  60.0%


  50.0%


  40.0%


  30.0%


  20.0%


  10.0%


   0.0%
            FY 2001           FY 2002           FY 2003        FY 2004          FY 2005          FY 2006           FY 2007

                      Southwest Chief     Empire Builder      Sunset Limited      California Zephyr      Coast Starlight

Note: Sunset Limited service is shared with UP and CSX (through 2005), but most is on UP. Empire Builder
service is shared with CP, but BNSF is the primary host . California Zephyr and Coast Starlight services are
shared with UP. The majority of the Coast Starlight service’s route is on UP.



Exhibit D. Amtrak OTP by Route and Host
                                                                                                         36



                                   CN Long Distance OTP
  100.0%


   90.0%


   80.0%


   70.0%


   60.0%


   50.0%


   40.0%


   30.0%


   20.0%


   10.0%


    0.0%
           Route Miles   FY 2001      FY 2002          FY 2003            FY 2004    FY 2005   FY 2006

                                                    City of New Orleans




                                   NS Short Distance OTP
  80.0%



  70.0%



  60.0%



  50.0%



  40.0%



  30.0%



  20.0%



  10.0%



   0.0%
           FY 2001       FY 2002      FY 2003          FY 2004            FY 2005    FY 2006   FY 2007

                                        Michigan      Pennsylvanian       Piedmont

Note: Michigan service is shared with CN and CSX.




Exhibit D. Amtrak OTP by Route and Host
                                                                                                                              37



                                     CSX Short Distance OTP


   90.0%


   80.0%


   70.0%


   60.0%


   50.0%


   40.0%


   30.0%


   20.0%


   10.0%


    0.0%
             FY 2001       FY 2002          FY 2003             FY 2004           FY 2005                FY 2006    FY 2007

                                           Carolinian     Empire          Hoosier State

Note: Empire service is shared with CN, but most of the route is on CSX. Carolinian service is shared with
NS. Hoosier State service is shared with CN, NS, and UP, but CSX is the primary host.

                                     UP Short Distance OTP
  90.0%


  80.0%


  70.0%


  60.0%


  50.0%


  40.0%


  30.0%


  20.0%


  10.0%


   0.0%
            FY 2001       FY 2002         FY 2003              FY 2004          FY 2005                 FY 2006    FY 2007

                                     Capitols       Cascades        San Joaquiins         Illinois/MO

Note: Cascades and San Joaquins services are shared with BNSF; but the Cascades service primarily runs
over BNSF. Only a small portion of the San Joaquins service runs over UP. Illinois service is shared with
BNSF and CN.




Exhibit D. Amtrak OTP by Route and Host
                                                                                                                       38



                                    BNSF Short Distance OTP
  90.0%



  80.0%



  70.0%



  60.0%



  50.0%



  40.0%



  30.0%



  20.0%



  10.0%



   0.0%
           FY 2001       FY 2002          FY 2003          FY 2004              FY 2005            FY 2006   FY 2007

                               Cascades       Heartland Flyer       Pacific Surfliner      San Joaquiins

Note: Cascades, Pacific Surfliner, and San Joaquins services are shared with UP, but BNSF is the primary
host for both the Cascades and San Joaquins services.

                        Canadian Pacific Short Distance OTP
  100.0%


   90.0%


   80.0%


   70.0%


   60.0%


   50.0%


   40.0%


   30.0%


   20.0%


   10.0%


    0.0%
            FY 2001       FY 2002         FY 2003           FY 2004              FY 2005           FY 2006   FY 2007

                                                                Hiawatha




Exhibit D. Amtrak OTP by Route and Host
                                                                                                                                                                   39



                                                                                                                                                              40
 EXHIBIT E. TRACK INFRASTRUCTURE CHARACTERISTICS
                                                                     Number of Tracks by Host Railroad
Total Mileage                                             6,080            6,053              4,065             2,310               1,153            373
       100%
                                                                                                                                      9.1%
                                                                                                                                     9.1%
                                                                           14.0%
                                                                   1.2%    14.0%    0.3%               1.5%               3.9%
   % of Total Host Railroad Mileage




                                                          35.9%                               30.8%                                                  32.2%
                                                          35.9%                               30.8%             41.0%
                                                   75%                                                          41.0%




                                                   50%                     85.7%
                                                                           85.7%                                                     90.9%
                                                                                                                                     90.9%
                                                          62.9%                               67.6%
                                                                                              67.6%                                                  67.8%
                                                          62.9%                                                  55.1%
                                                   25%                                                          55.1%




                                                    0%
                                                          BNSF              UP                CSXT               NS                   CN              CP

                                                                                    1 Track      2 Tracks     3 to 4 Tracks




                                                                      Siding Frequency by Host Railroad
Total Mileage                                              6,080            6,053              4,065             2,310               1,153            373
                                                   100%
                                                                                                                  4.6%
                                                                            9.4%
                                                                    2.4%                       19.9%
                                                                                                                 20.9%                                32.4%
                                                                            21.1%
                % of Total Host Railroad Mileage




                                                           42.5%
                                                   75%
                                                                                               21.5%


                                                                                                                                      84.0%
                                                   50%
                                                                                                                  74.5%                               67.6%
                                                                            69.6%
                                                                                               58.5%
                                                           55.2%
                                                   25%


                                                                                                                                      13.7%   2.3%

                                                    0%
                                                          BNSF               UP                CSXT               NS                   CN               CP

                                                              Less than every 10 miles         Every 10 to 20 miles           Greater than every 20 miles




 40
             For all charts in Exhibit E, the source of the data is OIG analysis of Department of Energy data.


 Exhibit E. Track Infrastructure Characteristics
                                                                                                                40


                                                          Signal Type by Host Railroad
Total Mileage                              6,080          6,053          4,065          2,310   1,153   373
                                    100%
                                                                         11.8%          7.5%
                                                   0.2%           2.6%
 % of Total Host Railroad Mileage




                                    75%

                                           69.8%


                                                                                                84.3%   85.5%
                                                          83.9%
                                    50%                                                 79.7%
                                                                         84.3%




                                    25%
                                           30.0%
                                                                                 3.8%           9.4%
                                                          13.5%                         12.7%           14.5%
                                                                                                6.7%
                                     0%
                                           BNSF            UP            CSXT            NS      CN      CP

                                                                         ABS     CCT     MAN




Exhibit E. Track Infrastructure Characteristics
                                                                      41




EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                               Title

  Mitchell Behm                      Program Director

  Debra Mayer                        Project Manager

  Marjorie Tsaousis                  Management and Program Analyst

  Chia-Mei Liu                       Economist

  Jerrod Sharpe                      Economist

  Andrea Nossaman                    Writer-Editor

  Thomas K. Lehrich                  Chief Counsel




Exhibit F. Major Contributors to This Report
                                                                                                 42




           APPENDIX. AGENCY COMMENTS



                                                Memorandum
           U.S. Department
           of Transportation
           Federal Railroad
           Administration



Date:   July 30, 2008                                          Reply to Attn of:



Subject:   Response to the Draft Report Entitled “Root Causes of Amtrak Train Delays”—
           Project No. 07C3004C000


From   : Clifford Eby
         Deputy Administrator


 To:       David Tornquist
           Assistant Inspector General for Rail and Maritime
            Program Audits and Economic Analysis


           The Federal Railroad Administration appreciates the opportunity to review your
           office’s report: “Root Causes of Amtrak Train Delays”. The report appropriately
           recognizes that there are multiple causes for delays impacting Amtrak trains, not the
           least of which is the growing congestion on parts of our national rail system resulting
           from the growth in the amount of freight moving by rail over a rail system that is
           substantially smaller than existed in 1971. The report also recognizes that because
           there are multiple causes for delay, there will be no one “silver bullet” that
           dramatically improves Amtrak’s On Time Performance (OTP). Instead, success will
           come from a multi-faceted approach requiring a continuing commitment by Amtrak
           and the host railroads to continuous improvement. There is also a role for a Federal-
           State partnership to address bottlenecks and other causes of delay as proposed by
           Secretary of Transportation Mary E. Peters in President Bush’s FY 2009 budget
           request. With that as an introduction, I will discuss the report’s recommendations.




           Appendix. Agency Comments
                                                                                     43


OIG’S DRAFT RECOMMENDATIONS TO FRA

1. Seek a legislative change that would provide Amtrak with the same right to
   appeal to the Secretary of Transportation to enforce its preference rights as
   the host railroads now have to appeal to the Secretary to obtain relief from
   their preference obligations.


   FRA’s Response to Recommendation 1: The issue of how to incorporate Amtrak’s
   intercity passenger trains with freight trains operating on privately owned right of
   way has been an issue since Amtrak was created in 1971. As the report notes, the
   preference concept and the ability of the freight carriers to appeal to the Secretary
   to address preference concerns was added by Congress in 1973, evidently in
   response to issues Amtrak faced in the first years of operations. In Amtrak’s
   enabling legislation, the Rail Passenger Service Act of 1970, Congress vested most
   authority for resolving disputes between Amtrak and the freight railroads with the
   Interstate Commerce Commission (now the Surface Transportation Board).
   Amendments to the Act were frequently made, particularly in the first 10 years of
   Amtrak’s existence, to attempt to address issues that developed between the freight
   railroads and Amtrak with authority vested in either the STB or the DOT.
   Providing Amtrak with specific authority to appeal preference issues has not been
   provided by Congress during Amtrak’s 37 year existence, though it seems likely
   that it has been sought by Amtrak. The concept of a legislative solution could be
   explored in greater detail though obviously it is a complicated issue and cannot be
   addressed simply by adding Amtrak into existing section 24308(c). There is also a
   concern that offering such a proposal, which the railroad industry will oppose,
   could undermine the cooperative efforts that are currently underway to address
   OTP issues as described in the Report.

   It should be recognized that any legislation proposed by FRA is a legislative
   proposal of the Administration that must be vetted through FRA, the Department of
   Transportation and other parts of the Administration. The time available for
   making this response did not permit the conduct of additional research, the
   development of a specific proposal or its appropriate vetting. Unfortunately,
   resolving the issues and developing a legislative proposal cannot be done in the
   context of the pending Amtrak reauthorization. At the time the recommendation
   was made, both the Senate and House of Representatives have each already passed
   Amtrak reauthorization legislation, the most likely legislative vehicle in which to
   place such a requirement. It is reported that they are near reaching consensus on
   compromise legislation. FRA, however, will consider the issue further and engage
   appropriate representatives within the Department to explore how such an approach



Appendix. Agency Comments
                                                                                     44


   could be structured and the appropriate legislative vehicle for possible
   consideration by Congress.

2. Seek a legislative change to expand the personal liability dispatchers now have
   for violations of FRA safety rules to include personal violations of Amtrak’s
   preference rights.

      a) FRA should seek to complement this increased liability with express
      authority for Amtrak to pay incentives to individual host railroad
      dispatchers for meeting dispatching metrics agreed upon by Amtrak and
      the individual host railroads.


FRA’s Response to Recommendation 2.a: The Report recognizes that there are many
causes of Amtrak delay and that some might involve the actions of individuals. There
are two concepts reflected in this recommendation: (1) seek a legislative change to
expand the personal liability dispatchers now have for violations of FRA’s safety rules
to include personal violations of Amtrak’s preference rights and (2) seek to
complement this increased liability with express authority for Amtrak to pay
incentives to individual host railroad dispatchers for meeting dispatching metrics
agreed upon by Amtrak and the individual host railroads. Individual liability has
proven to be an effective, albeit infrequently used, approach to assuring compliance
with safety laws and regulations. FRA may assess civil penalties against any person
(including a railroad and any manager, supervisor, official, or other employee or agent
of a railroad) for a willful violation of or for willfully causing the violation of, the
safety statutes or regulations (See 49 U.S.C. 21304 and 49 C.F.R. Part 209, Appendix
A). This is a higher standard than FRA applies with respect to collecting civil
penalties from railroads reflecting the seriousness of proceeding against individuals.
While FRA believes holding individuals accountable for their actions to be an entirely
appropriate way to ensure that statutory requirements are carried out, FRA opposes use
of the rail safety statutes for non-safety purposes. A better way to achieve the same
end would be to enact an entirely separate civil penalty provision having no relation to
the rail safety statutes beyond using them as a model. FRA is also concerned that it
may be very difficult to determine whether a particular decision by a particular
dispatcher failed to accord Amtrak the required preference. It appears that further
examination of that issue should be undertaken before draft legislation is prepared.
The standard would have to be crafted carefully with such considerations in mind for
the statute to be both effective and fair. There is also an issue concerning who would
enforce this measure. FRA’s Office of Safety and the Safety Law Division of the
Office of Chief Counsel should not do so. Their resources are fully and completed
engaged in critical safety concerns and should not be diverted. The elements of FRA
that regularly deal with intercity passenger matters, the Office of Railroad


Appendix. Agency Comments
                                                                                       45


Development and the General Law Division of the Office of Chief Counsel would
need additional resources to handle this responsibility. Depending upon what the
legislation ultimately says, the increment of resources needed could be substantial.

The second recommendation also merits additional study, though in the context of the
“carrot” it would need to be determined how such incentives could align with the
terms of the existing agreements between the railroads and their employees. The
railroads are likely to be concerned about creating a situation where their employees
are serving two “masters”. Thus, more research is needed to determine the relative
benefits of such an approach and if an implementable proposal along the lines of these
recommendations could be structured in such a way as to gain broad acceptance within
the Congress. Unfortunately, resolving these issues and developing a legislative
proposal cannot be done in the context of the pending Amtrak reauthorization. FRA,
however, will consider the issue further and engage appropriate representatives within
the Department to explore how such an approach could be structured and the
appropriate legislative vehicle for possible consideration by Congress.

       b) FRA should report to Congress on which host railroads agreed to
          permit such payments, what amounts were paid, and how these actions
          affected delays and OTP.
       FRA’s Response to Recommendation 2.b: FRA already reports to Congress
       quarterly on its actions to improve on-time performance and if such a program
       as discussed above were established, the issues and results associated with that
       program would be included in these reports.

3. Expand the route action plan process to include all Amtrak long distance and
   corridor routes with poor OTP and increase the visibility of the
   implementation of the resulting plans.

FRA’s Response to Recommendation 3: The performance improvement plans
recognize that cooperative action between Amtrak and the host railroad to identify and
address specific causes of delay has the potential to measurably improve OTP. This is
being borne out in the initial pilot program to such an extent that Amtrak and the host
railroads are establishing pilot programs on each of the Class I host railroads. The
programs can only be successful to the extent that Amtrak and its host railroads work
together in a cooperative fashion. FRA will actively monitor the progress of these
pilots and evaluate those aspects that work and those that can be improved. FRA will
also work with Amtrak and the host railroads to expand successful efforts as both
parties become comfortable with the process.




Appendix. Agency Comments
                                                                                   46


4. Use its quarterly OTP reporting requirement to obtain agreement between
   Amtrak and the host railroads regarding how to measure OTP and delays
   then publicly report OTP and delay data by host and route on a regular basis.

FRA’s Response to Recommendation 4: In the two quarterly OTP reports to Congress
FRA has made to-date, FRA has recognized the different bases on which Amtrak and
the host railroads measure OTP and discussed alternative approaches to obtain
meaningful and consistent measurement. FRA will use these discussions on OTP
measurement methodology to engage Amtrak and the host railroads, perhaps in the
context of the performance improvement plan pilots, in discussions designed to reach a
consensus on appropriate OTP metrics. In the interim, FRA will be presenting OTP
status based upon multiple metrics.

5. Encourage better internal reporting by the host railroads and increased focus
   by their top management of delays and OTP.

FRA’s Response to Recommendation 5: FRA believes that improvements should be
made in measuring OTP. FRA has broached the issue of how to improve reporting of
OTP and causes of delay with the host railroads in their 2008 safety program reviews
with FRA’s Administrator. In part, the issue is consistency in the metrics used to
measure OTP, as addressed in the recommendation immediately preceding this one.
FRA will continue to work with Amtrak and the host railroads to develop consensus
metrics and improved reporting of these metrics.

6. Support the permanent authorization of, and increased funding for, the state
   capital grant program through the upcoming surface transportation
   reauthorization and give increased consideration to projects that result in a
   binding commitment by the involved host railroad to improve OTP on that
   route.

FRA’s Response to Recommendation 6: The Administration first proposed such
legislation in 2003 and continues to support permanent authorization. Moreover, in
each of the last two years, the Administration has sought $100 million funding to get
the program established. It should be noted that permanent authorization of such a
program is included by both the Senate and House of Representatives in their version
of Amtrak reauthorization bills. As written, this proposed legislation would provide
the Secretary sufficient discretion in awarding grants that requiring the binding
commitment from the host railroad to OTP improvements could be one of the factors
used to determine whether to award a grant. Thus, whether there is a need to include
such legislation in the upcoming surface transportation reauthorization will not be
known until final action on the pending Amtrak reauthorization.




Appendix. Agency Comments
                                                                                    47


7. Develop model contract terms that can be used by the states that are investing
   their own funds into freight railroad capital projects to link those investments
   to commitments to improve OTP.

FRA’s Response to Recommendation 7: FRA believes such standard contract terms
could be a good starting point for negotiations between States and host railroads.
FRA expects to learn much from the FY 2008 and FY 2009 start up of the capital
grants to States for intercity passenger rail program that could form the basis for
developing such model contract terms, either in terms of implementing regulations of
the new grants to States for intercity passenger rail capital investment (as would be
required by the Senate and House of Representatives versions of Amtrak
reauthorization) or in future grant conditions.




Appendix. Agency Comments
The following pages contain textual versions of the graphs and charts included in this
document. These pages were not in the original document but have been added here to
accommodate assistive technology.
                                 Root Causes of Amtrak Train Delays
                                 Section 508 Compliant Presentation


RESULTS IN BRIEF

                                Figure 1 Total Delays by Host Railroad

                                         FY 2002--June 2008
                                Minutes of Delay per 10,000 Train miles
                                                                                                  FY 2008
                                                                                                  through
                                FY 2002   FY 2003    FY 2004   FY 2005       FY 2006    FY 2007   June
Burlington Northern Santa Fe        689       812        956          922      1,087      1,061        978
CSX                               1,158     1,279      1,478        1,714      1,760      1,699      1,422
Union Pacific                     1,993     2,045      2,108        2,218      2,670      2,444      2,004
Norfolk Southern                  1,290     1,265      1,314        1,528      1,961      1,877      1,449
Canadian National                 1,931     2,020      1,738        1,593      1,652      1,681      1,916
Canadian Pacific                  1,040       805        949        1,018      1,197      1,406      1,349

Source: OIG Analysis of Amtrak Data



         FINDINGS
         Figure 2
                     Percent of Trains Arriving Late (by minutes of delay)
                                               75         50        25     10 Percent
                                           Percent     Percent Percent       of the
                                             of the     of the    of the     Trains
                                            Trains      Trains   Trains
                                                      Duration of Delays
         State-Supported Corridors        21          32       53           90
                                          minutes     minutes minutes       minutes
         Non-State-Supported              28          45       75           116
         Corridors                        minutes     minutes minutes       minutes
         Long Distance                    66          114      193          301
                                          minutes     minutes minutes       minutes

         Source: OIG Analysis of Amtrak Data




         FINDINGS
         Figure 3 Total Minutes of Slow Order
         Delays
                              Minutes of Slow Order Delays (Per 10,000 train miles)
                                            FY 2002 -- June FY 2008
                                                                                      FY 2008
                        FY                                          FY       FY       through
Host                    2002       FY 2003   FY 2004   FY 2005      2006     2007     June
Total                    2,482      2,269     2,082      2,089       2,341    2,621     2,144

Source: OIG Analysis of Amtrak Data



FINDINGS
Figure 4 Minutes of Slow Order Delays by Host Railroad
                     Minutes of Slow Order Delays (Per 10,000 train miles)
                                   FY 2002 -- June FY 2008
                                                                                      FY
                                                                                      2008
                            FY                                      FY        FY      through
Host                        2002      FY 2003   FY 2004   FY 2005   2006      2007    June
Burlington Northern
Santa Fe                     176       196       182        199       219      273      227
CSX                          310       328       334        413       399      461      442
Union Pacific                745       753       664        635       834      819      565
Norfolk Southern             247       221       173        196       202      236      213
Canadian National            523       509       351        321       317      297      231
Canadian Pacific             482       262       378        327       369      535      465

Source: Amtrak
Figure 5
Change in Freight Traffic and Track Mileage on Delays (1980-2006)
                     Class 1 Freight Railroad Traffic      Class 1 Track Mileage
                                                           Class 1 Track Mileage
     Year          Class 1 Traffic Ton-Miles (billions)
                                                                 (billions)
          1980                     919                            164,822


           1985                   877                            145,764
           1990                  1,034                           119,758
           1995                  1,306                           108,264
           2000                  1,466                           99,250
           2001                  1,495                           97,817
           2002                  1,507                           100,125
           2003                  1,551                           99,126
           2004                  1,663                           97,662
           2005                  1,696                           95,830
           2006                  1,772                           94,942


Source: OIG Analysis of Data Provided by AAR and Bureau of Transportation Statistics
FINDINGS
Figure 6 Amtrak Conductor Reported Causes of
Delays
                    FY 2007
Cause of Delay      Percent
Host Railroad                               79%
FTI                                       24.9%
Slow Orders                               21.1%
PTI                                       10.9%
Signals                                    9.7%




Other                                      12.5%
Amtrak                                       15%

Passenger                                   3.6%

Crew                                        2.5%

Locomotive                                  1.9%
Other                                       7.2%
External Factors                              6%
Weather                                     1.4%
Unused Recovery
Time                                        2.0%
Trespassers                                 1.0%
Customs                                     0.5%
Other                                       0.9%

Source: OIG analysis of Amtrak data



FINDINGS
Figure 7 OTP for Schedule versus Incentive Standards for Amtrak Cascades
            On Time Performance
                   April 2008
                  OTP
Schedule                                   63%
Incentive
Standards                                  92%

Source: OIG Analysis of Washington DOT data
EXHIBIT D. AMTRAK OTP BY ROUTE AND HOST (For all charts in Exhibit
D, the source is OIG analysis of Amtrak data.)


                          CSX Long Distance OTP
                    FY     FY      FY      FY   FY   FY   FY
                    2001   2002    2003    2004 2005 2006 2007
Cardinal             51.2% 30.1% 32.3% 43.8% 38.0% 27.2% 39.0%
Lake Shore
Limited              41.6% 40.2% 33.1% 25.3% 20.3% 23.1% 32.4%
Silver Service       43.3% 37.1% 47.0% 29.9% 25.8% 17.6% 30.3%
Auto Train           53.5% 62.9% 58.9% 45.8% 37.6% 16.8% 62.1%
Sunset Limited       32.4% 17.5% 26.3%          4.3%    7.1%
Capitol Limited      44.2% 39.6% 48.6% 33.3% 26.4% 11.4% 23.4%
                    Note: Cardinal service is shared with Amtrak, CN-IC, NS,
                    and UP; Lakeshore service is shared with Amtrak and
                    NS; Silver service is shared with Amtrak and NS; Sunset
                    Limited Service, shared with UP and BNSF, was
                    discontinued on the CSXT portion of the line after
                    Hurricane Katrina; Capitol Limited service is shared with
                    NS and Amtrak.

                           NS Long Distance OTP
                    FY      FY      FY      FY       FY      FY       FY
                    2001    2002    2003    2004     2005    2006     2007
Lake Shore
Limited              41.6% 40.2% 33.1% 25.3% 20.3% 23.1% 32.4%
Crescent             77.4% 68.3% 66.2% 63.9% 57.6% 20.3% 42.9%
Capitol Limited      44.2% 39.6% 48.6% 33.3% 26.4% 11.4% 23.4%
                    Note: Lake Shore Limited and Capitol Limited services
                    are shared with CSXT.

                           UP Long Distance OTP
                    FY      FY      FY       FY       FY      FY     FY
                    2001    2002    2003     2004     2005    2006   2007
Texas Eagle          52.2% 21.4% 38.7% 62.7% 53.3% 19.7% 26.8%
Sunset Limited       32.4% 17.5% 26.3%         4.3%     7.1% 14.7% 13.5%
California Zephyr    52.4% 37.7% 34.8% 25.8% 24.4%              6.9% 10.2%
Coast Starlight      40.1% 35.5% 34.5% 22.4% 23.3%              3.9% 22.1%
                    Note: Texas Eagle service is shared with BNSF and CN,
                    Sunset Limited Service is shared with BNSF and CSXT
                    (through 2005), California Zephyr and Coast Starlight
                    services are shared with BNSF.

                         BNSF Long Distance OTP
                    FY     FY     FY      FY     FY     FY     FY
                    2001   2002   2003    2004   2005   2006   2007
Southwest Chief      56.8% 64.7% 75.3% 56.4% 71.7% 73.0% 60.1%
Empire Builder       81.7% 80.7% 83.2% 63.7% 68.1% 60.0% 73.4%
Sunset Limited       32.4% 17.5% 26.3%      4.3%   7.1% 14.7% 13.5%
California Zephyr    52.4% 37.7% 34.8% 25.8% 24.4%        6.9% 10.2%
Coast Starlight      40.1% 35.5% 34.5% 22.4% 23.3%        3.9% 22.1%
                    Note: Sunset Limited service is shared with UP and CSXT
                    (through 2005), Empire Builder is shared with CP,
                    California Zephyr and Coast Starlight with UP.

                            CN Long Distance OTP
                    FY       FY     FY       FY       FY      FY      FY
                    2001     2002   2003     2004     2005    2006    2007
City of New
Orleans             63.4%     61.7%   45.8%   67.5%   83.0%   84.4%   86.2%

                           NS Short Distance OTP
                    FY      FY      FY       FY      FY       FY     FY
                    2001    2002    2003     2004    2005     2006   2007
Michigan             53.8% 35.7% 55.8% 54.9% 43.6% 41.5% 31.4%
Pennsylvanian        71.4% 68.5% 73.4% 42.1% 63.7% 70.8% 71.5%
Piedmont             73.8% 64.8% 65.7% 72.6% 62.6% 63.0% 74.4%
                    Note: Michigan service is shared with CN-IC and CSX,
                    Pennsylvanian with Amtrak.

                          CSX Short Distance OTP
                    FY      FY      FY       FY       FY      FY       FY
                    2001    2002    2003     2004     2005    2006     2007
Carolinian           53.1% 41.8% 39.2% 31.9% 23.5% 17.0% 26.0%
Empire               77.2% 81.3% 73.6% 66.6% 60.0% 69.8% 61.7%
Hoosier State         n/a     n/a     n/a     53.0% 49.9% 50.2% 42.7%
                    Note: Empire service is shared with CN, Carolinian with
                    NS and Amtrak, and Hoosier State with CN, NS, and UP.
                           UP Short Distance OTP
                    FY      FY        FY      FY      FY     FY      FY
                    2001    2002      2003    2004    2005   2006    2007
Capitols             66.2% 83.6% 78.5% 85.6% 84.7% 73.0% 74.6%
Cascades             69.6% 64.4% 71.9% 62.3% 63.9% 48.0% 59.7%
San Joaquins         68.7% 78.1% 61.8% 56.1% 63.5% 63.2% 67.9%
Illinois/MO          73.3% 49.8% 60.0% 58.7% 69.4% 48.6% 27.9%
                    Note: Cascades and San Joaquins services are shared
                    with BNSF, Illinois/MO is shared with BNSF and CN.

                         BNSF Short Distance OTP
                    FY      FY       FY      FY        FY     FY      FY
                    2001    2002     2003    2004      2005   2006    2007
Cascades             69.6% 64.4% 71.9% 62.3% 63.9% 48.0% 59.7%
Heartland Flyer      85.8% 64.7% 79.6% 76.3% 71.2% 44.9% 28.6%
Pacific Surfliner    76.8% 88.2% 87.4% 86.9% 73.0% 76.1% 74.8%
San Joaquins         68.7% 78.1% 61.8% 56.1% 63.5% 63.2% 67.9%
                    Note: Cascades, Pacific Surfliner, and San Joaquins
                    services are shared with UP.

                          CP Short Distance OTP
                    FY     FY      FY       FY   FY   FY   FY
                    2001   2002    2003     2004 2005 2006 2007
Hiawatha             93.1% 93.7% 95.5% 93.0% 91.6% 89.7% 89.2%
